<html>
<title> - H.R. 1442, TO AUTHORIZE THE DESIGN AND CONSTRUCTION OF A VISITOR CENTER FOR THE VIETNAM VETERANS MEMORIAL</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 1442, TO AUTHORIZE THE DESIGN AND CONSTRUCTION OF A VISITOR 
               CENTER FOR THE VIETNAM VETERANS MEMORIAL

=======================================================================

                       LEGISLATIVE FIELD HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

          May 21, 2003 on the National Mall, Washington, D.C.

                               __________

                           Serial No. 108-21

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 21, 2003.....................................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from the 
      Territory of Guam..........................................     6
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Territory of the Virgin Islands............................     5
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement of....................................     3
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia, Prepared statement of..........     6
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     7

Statement of Witnesses:
    Cullinan, Dennis, Legislative Director, Veterans of Foreign 
      Wars, Washington, DC.......................................    34
        Prepared statement of....................................    34
    Duvall, Robert, Actor, Middleburg, Virginia..................     8
        Prepared statement of....................................     9
    Jones, Rick, Legislative Director, AMVETS, Lanham, Maryland..    32
        Prepared statement of....................................    32
    Karnow, Stanley, Pulitzer-Prize Winner and Author, Potomac, 
      Maryland...................................................    17
        Prepared statement of....................................    18
    Kimsey, James, Founding CEO and Chairman Emeritus, America 
      Online, Inc., Washington, DC...............................    14
        Prepared statement of....................................    16
    Oxendine, Dorothy, National President, American Gold Star 
      Mothers, Inc., Washington, DC..............................    30
        Prepared statement of....................................    31
    Prichard, Peter, President, The Freedom Forum, Arlington, 
      Virginia...................................................    10
        Prepared statement of....................................    12
    Scruggs, Jan, Founder and President, Vietnam Veterans 
      Memorial Fund, Washington, DC..............................    26
        Prepared statement of....................................    28
    Smith, P. Daniel, Special Assistant to the Director, National 
      Park Service, Washington, DC...............................    40
        Prepared statement of....................................    42


  LEGISLATIVE FIELD HEARING ON H.R. 1442, TO AUTHORIZE THE DESIGN AND 
   CONSTRUCTION OF A VISITOR CENTER FOR THE VIETNAM VETERANS MEMORIAL

                              ----------                              


                        Wednesday, May 21, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                     National Mall, Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., on 
the Mall, Hon. George Radanovich [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Radanovich, Peterson, Gibbons, 
Christensen, Tom Udall, Cardoza, and Bordallo.
    Also Present: Representatives Pombo and Hunter.
    Mr. Radanovich. Good morning. The Subcommittee on National 
Parks, Recreation and Public Lands will come to order. I want 
to welcome everybody to the first ever congressional hearing in 
the core memorial area of West Potomac Park and the National 
Mall. Thank you for being here. Sorry we couldn't do better 
with the weather, but thank God we have a tent.
    Before I make my opening statement, I would like to thank 
the National Park Service, the National Park Police, and the 
House Sergeant at Arms for their help in making this historic 
hearing possible.
    First, though, we will have a presentation of the colors 
presented by the U.S. Park Police.
    [Colors presentation.]
    Rev. Coughlin. As we gather here so close to the sacred 
wall that nobly bears the honored names of women and men who 
gave their lives in the Vietnam War, we are moved once again to 
mourn their loss with their comrades and families. Yet we stand 
strong and are invigorated by their witness of bravery and 
patriotism. And this we give credit to all the veterans in that 
memorable conflict.
    Lord, our faces and the present life of America is mirrored 
on this commanding tablet. Let us never forget. Help us to 
deepen our wisdom because of its lessons and inspire a new 
generation of generous and committed Americans.
    As we approach the Nation's Memorial Day, we remember all 
veterans of all wars who defend this country and stand for 
freedom. Strengthen now our efforts of homeland security and 
fortify young men and women in military service. Change the 
hearts of people around the world that we might overcome all 
prejudice and negative thinking and be instruments in Your 
hands to build a world of peace and security. This we pray, for 
we seek your blessing now and always. Amen.
    Mr. Radanovich. I want to recognize the Agnon Middle School 
from Beechwood, Ohio, the seventh grade class, who let us in 
the Pledge of Allegiance. And, also, I want to recognize 
Reverend Daniel Coughlin, the Chaplain for the House of 
Representatives, who, of course, led us in prayer. Thank you 
very much to all of you who participated in the ceremony.
    Before I begin my testimony, it is--or allow you to begin 
your testimony, it is customary at congressional hearings, as 
is the custom, I would ask the witnesses to stand and take the 
oath, please. If you would please stand and raise your right 
hands?
    [Witnesses sworn.]
    Mr. Radanovich. Thank you very much. You may be seated, and 
we will begin the testimony. Let the record show that all those 
who have testified have answered in the affirmative.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. This morning, the Subcommittee will receive 
testimony on H.R. 1442, legislation sponsored by the Committee 
Chairman Richard Pombo, of California, which would authorize 
the Vietnam Veterans Memorial Fund to design a construct a 
visitor center for the Vietnam Veterans Memorial. Many in the 
audience may not be aware, but back in 1979, Congress 
authorized the Vietnam Veterans Memorial Fund to raise the 
necessary funds to build a Vietnam Veterans Memorial. The fund 
met its goal, raising over $8 million, and on November 13, 
1982, the Wall was open to the public.
    Today, over 4.4 million people annually visit the Vietnam 
Veterans Memorial, the most visited Memorial in our Nation's 
capital. Some come to the Wall that heals to sketch the name of 
their fallen mother or father, brother or sister on a piece of 
paper, while others come for a solemn moment with a fallen 
comrade.
    Whatever the reason, the magnificent Wall behind me has 
come to represent so much to so many who visit it, and I 
believe most would agree that it has also become the quietest 
place in our Nation's capital.
    Today, 58,235 names are inscribed on the Memorial, and 
while the names send a strong statement to many, others who 
were not born or who were very young during the Vietnam era may 
today walk away from the Memorial with more questions than 
answers.
    With that, I yield to the Chairman of the Resources 
Committee, my Chairman, Mr. Richard Pombo, for his opening 
statement.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation and Public Lands

    Good Morning. The Subcommittee on National Parks, Recreation and 
Public Lands will come to order. I want to welcome everyone to the 
first ever Congressional hearing in the core memorial area of West 
Potomac Park and the National Mall.
    Before I make my opening statement, I would like to thank the 
National Park Service, the National Park Police and the House Sergeant 
at Arms for their help in making this historic hearing possible.
    First, we will have the Presentation of the Colors presented by the 
U.S. Park Police [ Wait for Presentation].
    Now, we will have the Pledge of Allegiance, led by the Seventh 
Grade Class of the Agnon School from Beechwood, Ohio. Would everyone 
please stand.
    Now, Reverend Daniel Coughlin, the Chaplin for the House of 
Representatives will lead us in prayer.
    Thank you all for your participation in out opening ceremony.
    This morning the Subcommittee will receive testimony on H.R. 1442, 
legislation sponsored by our Committee Chairman Richard Pombo of 
California, which would authorize the Vietnam Veterans Memorial Fund to 
design and construct a visitor center for the Vietnam Veterans 
Memorial.
    Many in the audience may not be aware but back in 1979 Congress 
authorized the Vietnam Veterans Memorial Fund to raise the necessary 
funds to build the Vietnam Veterans Memorial. The Fund met its goal--
raising over $8 million, and on November 13, 1982, The Wall was opened 
to the public.
    Today, over 4.4 million people annually visit the Vietnam Veterans 
Memorial--the most visited memorial in our Nation's capital. Some come 
to ``The Wall That Heals'' to sketch the name of their fallen mother or 
father, brother or sister on a piece of paper while others come for a 
solemn moment with a fallen comrade. Whatever the reason, the 
magnificent Wall behind me has come to represent so much to so many who 
visit it. I believe most would agree it has also become the quietest 
place in our Nation's Capital.
    Today, 58,235 names are inscribed on the memorial. While the names 
send a strong statement to many, to others who were not born or who 
were very young during the Vietnam era, may today walk away from the 
Memorial with more questions than answers.
    With that, I yield to the Chairman of the Resources Committee, Mr. 
Pombo for his opening Statement.
                                 ______
                                 

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. Thank you, Mr. Chairman.
    Shortly after becoming the Chairman of the Resources 
Committee, I was approached by a number of Vietnam veteran 
organizations asking for my help in making their long sought 
after vision of a visitor center for the Vietnam Veterans 
Memorial a reality. This is a common-sense idea. I decided to 
introduce the legislation before us today because I believe too 
many visitors to this great Wall behind us walk away not truly 
knowing the impact the Vietnam War had on our country, the men 
and women who fought in Vietnam and the lives of those families 
who lost their mothers and fathers, sons and daughter.
    While I was only a child when the war began, I was a 
teenager in 1975 when I watched on television as the last of 
our troops and hundreds of civilians were airlifted from the 
roof of our Embassy in Saigon. I remember a country at war with 
itself and no homecoming for those men and women who had spent 
months and years fighting in the most horrendous conditions for 
the freedom you and I enjoy today.
    Simply put, I believe the Vietnam War represents more than 
58,000-plus names on the Wall. Their stories deserve to be 
told, as well as the thousands of other stories that were tied 
to the war and its long-term effects on our Nation.
    I think the Vietnam Veterans Memorial should offer the 
visitor a more comprehensive understanding as to why America 
first got involved in Vietnam in the early 1950's and committed 
to the conflict until 1975. I believe I am correct when I say 
that the Vietnam War represents the country's longest military 
campaign. It spanned six Presidential administrations, involved 
over 3 million Americans in the Southeast Asia theater, and 
sacrificed the lives of 52,235 Americans.
    Before the hearing, I stood at the Wall and read the 
inscription, which reads: ``In honor of the men and women of 
the Armed Forces of the United States who served in the Vietnam 
War.'' The names of those who gave their lives and those who 
remain missing are inscribed in the order they were taken from 
us. I believe they deserve more.
    Thank you, Mr. Chairman, and I will yield back so that we 
may continue with the hearing.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Thank You, Mr. Chairman
    Shortly after becoming Chairman of the Resources Committee, I was 
approached by a number of Vietnam veteran organizations asking for my 
help in making their long sought-after vision of a visitor center for 
the Vietnam Veterans Memorial a reality.
    This is a common-sense idea. I decided to introduce the legislation 
before us today because I believe too many visitors to this great Wall 
behind us walk away not truly knowing the impact the Vietnam War had on 
our country, the men and women who fought in Vietnam, and the lives of 
those families who lost their mothers and fathers, sons and daughters.
    While I was only a child when the war began, I was a teenager in 
1975 when I watched on television as the last our troops and hundreds 
of civilians were airlifted from the roof the our embassy in Saigon. I 
remember a country at war with itself and no homecoming for those men 
and women who had spent months and years fighting in the most 
horrendous conditions for the freedom you and I enjoy today.
    Simply put, I believe the Vietnam War represents more than 58,000-
plus names on The Wall. Their stories deserve to be told as well as the 
thousands of other stories that were tied to the War and its long-term 
effects on our Nation.
    I think the Vietnam Veterans Memorial should offer the visitor a 
more comprehensive understanding as to why America first got involved 
in Vietnam in the early 1950's and committed to the conflict until 
1975. I believe I am correct when I say that the Vietnam War represents 
the country's longest military campaign--it spanned six Presidential 
Administrations, involved over 3 million Americans in the Southeast 
Asia Theater, and sacrificed the lives of 52,235 Americans.
    Before the hearing I stood at The Wall and read the inscription 
which reads...``In honor of the men and women of the armed forces of 
the United States who served in the Vietnam war. The names of those who 
gave their lives and of those who remain missing are inscribed in the 
order they were taken from us.''
    I believe they deserve more.
    Thank you Mr. Chairman. I yield back my time.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Chairman.
    Before turning time over to Mrs. Christensen, I would ask 
unanimous consent that members not on the Committee be 
permitted to sit on the dais for the hearing. Without 
objection, so ordered.
    I now turn to the Ranking Member from the Virgin Islands, 
Mrs. Christensen, for any opening statement she may have.

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
       CONGRESS FROM THE TERRITORY OF THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
for calling this hearing right here on the Memorial grounds. 
And you have made history many times in my association with you 
on this Committee, and this is another one.
    First, I want to take the opportunity to welcome the young 
people who have joined us and the veterans and the 
representatives of the veterans organizations, and to thank all 
of our distinguished witnesses for their time and effort to be 
here today. I know that you are all here because the Vietnam 
Veterans Memorial is very important to all of you, and I know 
we are all looking forward to hearing what the panelists before 
us have to say about the proposal to build the visitor center 
here.
    Let me also say that while the logistics can be a bit 
complicated, allowing members to see the actual area on the 
National Mall that would be affected by this proposal is 
invaluable, and I am very happy that we are able to hold a 
meeting here.
    Any potential changes to this Memorial must be considered 
very carefully. This Wall is an incredibly powerful tool for 
reconciliation and healing. It is also a permanent record of 
sacrifice and loss. Millions of Americans feel a deep personal 
connection to this Wall, and we are its stewards. We must 
consider this and any other proposals affecting memorials on 
the Mall carefully.
    My own personal experience in coming here with my husband, 
a Vietnam War veteran, for his first time more than 30 years 
after his service was a very moving one. And I wonder if a 
visitor center nearby would not have taken away from that 
awesome, peaceful, uncluttered moment when you are just there 
with the Wall, and even the people around you disappear--just 
you and the Wall with all its deep meaning and poignant 
memories.
    I am not sure I would want to change that, but I am willing 
to listen to those for whom the Memorial is really an up-front 
and very, very personal experience.
    In this instance, a visitor center would allow the National 
Park Service and the Vietnam Veterans Memorial Fund to provide 
visitors to this Wall a context that might further their 
understanding of the war. For many of the younger visitors 
here, this list of more than 58,000 names inscribed on black 
granite is certainly moving, but their personal understanding 
of and connection to the events surrounding this conflict are 
limited. A small underground visitor center could become a 
powerful tool in expanding visitors' connection with this 
Memorial and with its subject matter.
    Certainly there are technical details to be considered. How 
best to design and construct this proposed center so that it 
will not intrude upon this or any other memorial on the Mall, 
as well as how best to fund, staff, and maintain the center if 
it is built must all be explored. However, these issues can and 
will be resolved, and today's hearing will be very, very 
helpful in that process.
    Again, I want to thank our witnesses here today, and we 
look forward to your invaluable input. And, Mr. Chairman, I 
would like to ask unanimous consent to enter the statement of 
the Ranking Member of the full Committee, one of the original 
cosponsors, Congressman Nick Rahall, into the record.
    Mr. Radanovich. There being no objection, so ordered.
    [The prepared statement of Mr. Rahall follows:]

     Statement of The Honorable Nick J. Rahall II, Ranking Member, 
                         Committee on Resources

    Mr. Chairman, H.R. 1442, sponsored by our Full Committee Chairman, 
Mr. Pombo, authorizes the Vietnam Veterans' Memorial Fund, the 
organization that designed and built the Vietnam Memorial, to design 
and construct a Visitor Center for the Wall as well. As an original 
cosponsor of this measure, along with my friend Jack Murtha, I fully 
support this legislation and am pleased that you are holding this 
important hearing today.
    While the Vietnam War was a difficult, divisive and bloody chapter 
in American history, the Memorial to those who served during that war 
has become a catalyst for reconciliation and healing.
    At the time of its construction, many wondered if such a simple, 
stark memorial was appropriate and even those who fully supported Maya 
Lin's brilliant design could never have imagined the powerful effects 
this Wall would come to have.
    Millions of visitors each year leave millions of heartfelt tributes 
at the wall but, more important, each visitor leaves having been 
touched forever by their visit.
    However, as the war itself fades further into our history, more and 
more of the visitors to the Wall have no personal connection with 
Vietnam. We should encourage young people, born after the war, to visit 
the Wall and learn about the sacrifice involved in defending democracy. 
And we should continue to hope that these young people will have no 
personal experiences of war.
    At the same time, however, these younger visitors must be provided 
some context for their visit. A small, underground visitor center at 
the Wall will allow people some understanding of the circumstances 
surrounding the Vietnam War and provide a glimpse of the intense 
emotions so many Americans still feel when Vietnam is mentioned.
    In addition, this visitor center proposal is particularly 
appropriate given the vast collection of items left at the Wall, some 
of which could be displayed in this new facility.
    The Wall memorializes the more than 58,000 men and women who, as 
President Lincoln said about a different group of soldiers, gave the 
``last full measure of devotion'' for this nation.
    But the Wall has always been about those who survived the war and 
those who seek to understand the war years later, as well. The addition 
of this visitor center will provide an important new tool in 
accomplishing each of these valuable missions.
    I want to thank our witnesses for their time and effort to be here 
today and I look forward to continuing our efforts to see H.R. 1442 
enacted.
                                 ______
                                 
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    Are there any others on the panel wishing to make an 
opening statement before we go to the witnesses? Ms. Bordallo?

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you very much, Mr. Chairman. I am 
representing the Territory of Guam. I am a proud cosponsor of 
this legislation and believe it is important for us to 
authorize the establishment of a visitor and interpretive 
center to complement the Memorial Wall.
    This center will stand to educate generations of young 
Americans, and we must ensure that the war experience, the 
honor, the service, and the sacrifice of our veterans is 
remembered for generations to come.
    Guam contributed in high numbers in the Vietnam War and 
endured the most military casualties of native sons per capita 
in the United States.
    I want to thank you, Mr. Chairman, and thank the witnesses 
who have come here to testify today, and I look forward to 
their testimonies.
    Mr. Radanovich. Thank you, Ms. Bordallo.
    Any other members wishing to make any statement? Mr. Udall?

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. I am very interested in hearing the 
witnesses, so I am just going to be very brief.
    I think that there are individuals that are here that have 
worked a long time to see this wall become a reality, and I 
applaud them for their efforts. I, too, as our Ranking Member 
here said, want to hear the proposals consider them carefully, 
and do everything we can within the structure that is 
applicable today to make this a reality.
    So thank you to all of you for coming, and I would waive 
any further time so we can get to this distinguished panel of 
witnesses we have.
    I yield back, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Udall.
    Anybody else wish to make an opening statement? If not, we 
will go right to our panel. I want to thank the gentlemen for 
being here today to testify on this issue.
    As is customary in hearings, we usually have a little clock 
here. Actually, it is not a clock. It is a set of lights, just 
like a traffic light. Green means go, yellow means speed up, 
and red means stop. So we are going to try to abide by the 5-
minute rule, although I want to make sure that every 
information that is necessary to get into the record is had. So 
if you can abide by the clock, I won't gavel you down or 
anything, but I might remind you if you go quite far beyond.
    And if you don't mind, I may interrupt some folks during 
the hearing because of the jets going overhead if it gets to be 
a little bit too loud and if I think that people aren't able to 
hear. I think we got a good mike system. I think we will be OK, 
but just in case, I want to let you know.
    Joining us today is Mr. Robert Duvall, who is an actor, 
from Middleburg, Virginia; also Mr. Stanley Karnow, who is a 
Pulitzer Prize journalist from Potomac, Maryland; Mr. James 
Kimsey, founding CEO and Chairman Emeritus of America Online, 
from Washington, D.C.; and Mr. Peter Prichard, who is the 
President of the Freedom Forum in Arlington, Virginia.
    Gentlemen, again, thank you very, very much. We will start 
with 5 minutes' testimony from each, and then we will open up 
the panel for questions by the members. So, Mr. Duvall, welcome 
very much, and thank you for being here. And if you would like 
to begin your testimony, we would be anxious to hear it.

              STATEMENT OF ROBERT DUVALL, ACTOR, 
                      MIDDLEBURG, VIRGINIA

    Mr. Duvall. Mr. Chairman and members of the House Resources 
Committee, I am honored to be here, and I am honored to show my 
support for a visitor center at the Vietnam Veterans Memorial. 
I am the son of a career naval officer. My father first went 
into the United States Naval Academy when he was just 16 years 
old. He was the youngest of his class, youngest captain in the 
Navy during World War II.
    I learned love of my country from my father, and the love 
of country also made me a veteran of the United States Army. So 
love of country, where else can we see this love more vividly 
than at this place? Over 58,000 citizens have their names 
engraved here. Who is not moved by these names? Who is not 
moved by these heroes?
    So let us pass this bill. America's youth will someday see 
the photographs of the brave soldiers who did their duty for 
our country in a privately funded visitor center. This may 
become the most profoundly memorable educational experience in 
Washington, D.C., as the experience of the center works in 
synergy with the Memorial.
    This is the third time Congress has tried to pass this 
bill. The third time. Mr. Chairman, I salute you for your 
dedication to finally getting this job done.
    There were those who two decades ago did not want this 
Memorial on the Mall, but the wisdom of the Congress prevailed, 
thankfully. Now we must complete the task. And as this Memorial 
has evolved from ``The Wall That Heals'' to ``The Wall That 
Educates,'' America's youth must have the opportunity to learn 
patriotism and sacrifice at the Vietnam Veterans Memorial.
    Every decent American I know agrees with me when I say 
there is nothing to fear in the precedent of educating youth 
that will be set by this visitor center. Good education is 
never dangerous. Young Americans could and should have learned 
about patriotism and sacrifice at the Wall with a visitor 
center long ago. I especially thank the President of the United 
States and National Park Service Director Fran Mainella for 
support of this concept.
    Actually, I had a great line from ``Apocalypse Now,'' where 
I played Lieutenant Colonel Bill Kilgore, and the line was, I 
quote--it is not the one that you think it is, but ``Some day 
this war is gonna end.''
    In a profound sense, the societal impact of that war is not 
over. The Vietnam War changed our country and has ongoing 
implications for all Americans. Yet here at this sacred site, 
those who took opposing views stand united in respect for the 
citizens whose names are engraved. And this is where we must 
have the visitor centers--right here at the Wall.
    This is a historic day, a historic hearing at the site of 
the Vietnam Veterans Memorial. A visitor center for America is 
closer to becoming a reality.
    I was moved at looking at the young people here today. I 
think we all are, because future leaders of our country are 
here to petition Congress.
    There is a visitor center at the Jefferson Memorial and the 
Lincoln Memorial, and one is planned for the Washington 
Monument as well.
    Yet Vietnam veterans have to wage this struggle again and 
again for this noble cause. So I am pleased to be a part of it 
and again salute the wisdom of this Committee.
    The youngsters here deserve to learn; they deserve to learn 
right here, not anywhere else but right here. This is what this 
hearing is about. It is about America's youth. They are here 
today petitioning Congress, so this hearing is about American 
democracy.
    We are the land of the free and the home of the brave. We 
are also a land which is at war with terrorists who want to 
destroy our civilization, period. Some of these youngsters may 
have to serve as soldiers to defend our Nation in the future. 
Hopefully note.
    I end today with a quote from Abraham Lincoln's Gettysburg 
Address: ``It is for us the living to be here dedicated to that 
cause for which they gave their last full measure of devotion--
that we here rightly resolve that these dead shall not have 
died in vain, that this Nation under God shall have a new birth 
of freedom and that government of the people, by the people, 
and for the people shall not perish from the earth.''
    The spirits of the soldiers on this Memorial speak to us 
today with the sound of a thousand trumpets as they echo the 
words of the prophet Isaiah: ``Open ye the gates that the 
righteous nation which keepeth the truth may enter in.''
    So I urge all efforts to pass H.R. 1442. Let's bring about 
this visitor center. We owe it to those who are on this 
Memorial. We owe this to our fellow citizens. We owe it to 
those who are too young to know.
    Thank you.
    [The prepared statement of Mr. Duvall follows:]

        Statement of Robert Duvall, Actor, Middleburg, Virginia

    Mr. Chairman and Members of the House Resources Committee.
    I am honored to show my strong support for a Visitor Center at the 
Vietnam Veterans Memorial. I am the son of a career naval officer. He 
taught me love of country. That love of country also made me a veteran 
of the U.S. Army.
    Love of country. Where else can we see this love so vividly than at 
this place? Over 58,000 citizens have their names engraved here. Who is 
not moved by these names, these heroes?
    Let us pass this bill. America's youth will someday see the 
photographs of the brave soldiers who did their duty for our country in 
a privately funded Visitor Center. This just may become the most 
profoundly memorable educational experience in Washington, D.C. as the 
experience of the Center works in synergy with the Memorial.
    This is the third time Congress has tried to pass this bill. Mr. 
Chairman, I salute you for your dedication to finally getting this job 
done.
    There were those who two decades ago did not want this Memorial on 
the Mall. But the wisdom of the Congress prevailed. And thankfully. Now 
we must complete the task. As this Memorial has evolved from The Wall 
that Heals to The Wall that Educates--America's youth must have the 
opportunity to learn patriotism and sacrifice at the Vietnam Veterans 
Memorial.
    Every decent American I know agrees with me when I say there is 
nothing to fear in the precedent of educating youth that will be set by 
this Visitor Center. Education is never dangerous. Young Americans 
could and should have learned about patriotism and sacrifice at The 
Wall with a Visitor Center long ago. I especially thank the President 
of the United States and National Park Service Director Fran Mainella 
for support of this concept.
    I had a great line from Apocalypse Now--where I played Lt. Colonel 
Kilgore.
    The line: ``Some day this war is gonna end.''
    In a profound sense the societal impact of the war is not over. The 
Vietnam War changed our country and has ongoing implications for all 
Americans. Yet here at this sacred site--those who took opposing views 
stand united in respect for the citizens whose names are engraved. This 
is where we must have the Visitor Center. Right here at The Wall.
    This is a historic day. This is a historic hearing at the site of 
the Vietnam Veterans Memorial--a Visitor Center for America is closer 
to becoming a reality.
    I am moved as I look at the young people here today--future leaders 
of our country are here to petition Congress.
    There is a visitor center at the Jefferson Memorial and the Lincoln 
Memorial. A visitor center is planned for the Washington Monument as 
well.
    Yet Vietnam Veterans have to wage this struggle again and again for 
this noble cause! I am just so pleased to be a part of it and again 
salute the wisdom of this committee.
    The youngsters here deserve to learn--they deserve to learn right 
here. This is what this hearing is about. It is about America's youth. 
They are here today petitioning Congress. This hearing is about 
America's youth and understanding our nation's democracy.
    We are the land of the free and the home of the brave. We also are 
a land which is at war with terrorists who want to destroy our 
civilization. Some of these youngsters may have to serve as soldiers to 
defend our nation.
    I end today with a quote from Abraham Lincoln's Gettysburg address: 
``It is for us the living to be here dedicated to that cause for which 
they gave their last full measure of devotion--that we here highly 
resolve that these dead shall not have died in vain, that this nation 
under God shall have a new birth of freedom and that government of the 
people by the people and for the people shall not perish from the 
earth.''
    The spirits of the soldiers on this Memorial speak to us today with 
the sound of a thousand trumpets as they echo the words of the prophet 
Isaiah: ``Open ye the gates that the righteous nation which keepeth the 
truth may enter in.''
    I urge all efforts to pass H.R.1442. Let's bring about this Visitor 
Center. We owe it to those who are on this Memorial.
    We owe this to our fellow citizens.
    We owe it to those who are too young to know.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Duvall.
    [Applause.]
    Mr. Radanovich. As is customary, there is generally no sign 
of reaction to speaking in congressional hearings. I would like 
to remind the audience of that as we hear this testimony.
    We are going to go right down the line here. Mr. Prichard, 
I want to welcome you to the Subcommittee hearing, and if you 
would like to begin your testimony, please do so.

          STATEMENT OF PETER S. PRICHARD, PRESIDENT, 
             THE FREEDOM FORUM, ARLINGTON, VIRGINIA

    Mr. Prichard. Thank you, Mr. Chairman.
    It is an honor for me to be here today with other Vietnam 
veterans, with Members of Congress, and with Gold Star Mothers 
and friends of the Vietnam Veterans Memorial, to speak in 
support of the proposed visitor center, which I believe is an 
excellent idea which fills a pressing need.
    Although I am speaking strictly for myself today, in my 
professional life I am president of the Freedom Forum and the 
Newseum, the new interactive museum of news that will open its 
new facility at 6th and Pennsylvania in a few years. And I am 
also a former editor in chief of USA Today, so I bring the dual 
perspectives of a journalist and a museum educator to the 
subject.
    Today, nearly 30 years after the Vietnam War ended, it is 
becoming harder to recall the intense turmoil and the bitter 
divisions that war brought to the lives of Americans. If you 
will indulge me for a moment, I would like to take you back to 
the spring of 1967 and share a moment from my life with you.
    I was 22 years old. I was teaching English literature to 
high school seniors in western Massachusetts. I had no desire 
to teach high school. I was teaching because under the arcane 
rules of the Selective Service System of the time, I could 
escape the draft. And my motivation, I must confess, was not 
exactly a service to my students.
    I walked out to my mailbox in Amherst, Massachusetts, on 
that fine spring day and found two letters. The first was from 
the Peace Corps, accepting me as a volunteer and offering me a 
position teaching English on a small island in the Pacific. 
Visions of a tropical paradise danced in my head.
    The second letter was from General Lewis B. Hershey. He 
wrote: Greetings. You must report to an induction center in 
Hartford, Connecticut. You have been drafted. I don't believe 
that General Hershey signed that letter personally.
    Unsure of what to do, I called the Peace Corps and 
explained my dilemma. The woman in Washington was very nice, 
but firm. She said, ``I am sorry, Mr. Prichard, but the Defense 
Department takes precedence in these cases.''
    So, despite fears for my safety and ambivalence about the 
cause, I reported for duty. I was one of the few Ivy League 
graduates to be drafted, which is another commentary on the 
unfairness of the Selective Service System of the time. I 
served 13 and a half months in Vietnam, most of it in a small 
town called Sadec in the Mekong Delta. Although, thank God, I 
was not shot at very often, I gained a lifelong respect for the 
courage and competence of the American soldier, no matter how 
controversial the cause, or how dirty and dangerous the duty. 
And although over time I grew to oppose the war and later 
publicly questioned the wisdom of our commitment, I learned the 
value of service to one's country, even in the most unpopular 
of wars. One can disagree with one's country, but still serve 
with respect and dedication when called.
    Twelve years after I returned from Vietnam, I was a young 
editor at a startup newspaper, USA Today. It was Veterans Day 
1982, and I read in the Washington Post that on that particular 
Saturday there would be a parade of Vietnam veterans marching 
down Constitution Avenue to dedicate Washington's newest 
memorial, that long black wall that had been so controversial 
to build.
    The veterans who marched down Constitution that day in 
support of the Memorial were a rag-tag, long-haired bunch. They 
reminded me of the American rebels of 1776, that ``rabble in 
arms'' that secured our independence from the greatest 
superpower of that day.
    I had grown up in a small Minnesota town near the Canadian 
border, Thief River Falls, and when the Minnesota contingent 
came marching by that day on Constitution Avenue, it was led by 
a high school friend of mine who had been wounded with the 25th 
Division. I had not seen him in many years. He was pushing his 
buddy in a wheelchair; they had both been blown up when their 
armored personnel carrier had been hit by rocket-propelled 
grenades.
    Forsaking my young family, I jumped off the curb and joined 
the parade, marching along together with the other veterans, 
swept up in the joy and gratitude of all of the veterans. We 
finally felt that our service to our country was beginning to 
be recognized. We had fought and served and suffered in the 
most unpopular war in American history. More than 58,000 of us 
had died. And, finally, we felt some measure of thanks and 
appreciation and acknowledgment for our service, thanks to Jan 
Scruggs and all of the other determined veterans and people who 
got this Wall built.
    And today, as many have said, this is the most popular 
Memorial in Washington.
    But, as Chairman Pombo has observed, more than half of the 
visitors to this Memorial were born after the Vietnam War 
ended. Many--perhaps most--have little or no knowledge of why 
the war was fought, how we became involved, whether we won or 
lost or just fought to a draw, and what we learned from one of 
the most wrenching American experiences of the 20th century. 
And no museum in Washington deals with this subject in any 
depth.
    What could be more appropriate to redress this gap in our 
knowledge and understanding than this visitor center? What 
better way could there be to teach our young people and young 
people around the world about some of our most precious ideals: 
the value of service to one's country, even for an unpopular 
cause; the freedom to speak out in a democracy, for or against 
any issue; the bravery of those who fought, even when they knew 
the American public was ambivalent or antagonistic; and, 
finally, the healing that is still needed, for those who lost 
loved one, for the veterans who suffered and were forever 
changed, and for the Nation to close the wounds that this war 
left on the American psyche.
    What better place could there be for a visitor center than 
here at this sacred wall? Building it here will stimulate 
millions of Americans to learn more about the Vietnam War and 
the lessons it still teaches us. This is in the best tradition 
of our war memorials, which are built so that future 
generations will always remember, will never forget, the 
sacrifices that were made.
    Almost 40 years ago, when I was a Specialist Four hoping to 
survive in Vietnam, I found in the PX a paperback book by the 
great French journalists, Bernard Fall. That book educated me 
about the roots of the conflict. After I read it, I finally 
understood something about how I--and the other half a million 
Americans on the ground then--had ended up in what many thought 
was a quagmire. I was grateful for that book because it brought 
me a measure of understanding. If by building a visitor center 
in this sacred space we can bring some similar measure of 
understanding to the millions of young people who visit this 
hallowed ground each year, our capital and our Nation will be 
better for it.
    Thank you very much.
    [The prepared statement of Mr. Prichard follows:]

      Statement of Peter S. Prichard, President, The Freedom Forum

    Thank you, Mr. Chairman.
    It is an honor for me to be here today with other Vietnam Veterans, 
with Gold Star Mothers and friends of the Vietnam Veterans Memorial, to 
speak in support of the proposed Visitors Center, which I think is an 
excellent idea which fills a pressing need.
    Although I am speaking strictly for myself today, in my 
professional life I am the president of the Freedom Forum and the 
Newseum, the interactive museum of news that will open its new facility 
at Sixth and Pennsylvania in a few years, just across the street from 
the National Art Gallery. I am also a former editor-in-chief of USA 
TODAY, so I bring the dual perspectives of a journalist and a museum 
educator to the subject that is before us today.
    Today, nearly three decades after the Vietnam War ended, it is 
becoming harder to recall the intense turmoil and the bitter divisions 
the war brought to Americans' lives. If you would indulge me for a 
moment, I would like to take you back to the spring of 1967, and share 
a moment from my life with you. I was twenty-two years old, and I was 
teaching English to high school seniors in Western Massachusetts. I had 
no desire to teach school; I was teaching because under the arcane 
rules of the Selective Service System of the time, I could escape the 
draft. My motivation was not exactly a service to my students.
    I walked out to my mailbox in Amherst, Massachusetts on that fine 
spring day and found two letters. The first was from the Peace Corps, 
accepting me as a volunteer and offering me a position teaching English 
on a small island in the Pacific. Visions of grass skirts danced in my 
head.
    The second letter was from Lewis B. Hershey. He wrote: Greetings, 
you are to report to an induction center in Hartford, Connecticut. You 
have been drafted. I don't believe General Hershey signed the letter 
personally.
    Unsure of what to do, I called the Peace Corps and explained my 
dilemma. The woman in Washington was very nice, but firm. She said, 
``I'm sorry, Mr. Prichard, but the Defense Department takes precedence 
in these cases.''
    So, despite fears for my own safety and deep ambivalence about the 
cause, I reported for duty. I was one of the few Ivy League graduates 
to be drafted. I served thirteen and a half months in Vietnam, most of 
it in a small town called Sadec in the Mekong Delta. Although, thank 
God, I was not shot at very much, I gained a lifelong respect for the 
courage and competence of the American soldier, no matter how 
controversial the cause, or how dirty and dangerous the duty. And 
although over time I grew to oppose the war, and later publicly 
questioned the wisdom of our commitment, I learned the value of service 
to one's country, even in the most unpopular of wars.
    Twelve years after I returned from Vietnam, I was a young editor at 
a start-up newspaper called USA TODAY. It was Veterans Day, 1982, and I 
read in The Washington Post that on that Saturday there would be a 
parade of Vietnam Veterans marching down Constitution Avenue to 
dedicate Washington's newest memorial, that long black wall that had 
been so controversial to build.
    The Veterans who marched that day in support of the Memorial were a 
rag-tag, long-haired bunch. They reminded me of the American rebels of 
1776, that ``rabble in arms'' that secured our independence from the 
greatest superpower of that day.
    I grew up in a small Minnesota town near the Canadian border called 
Thief River Falls, and when the Minnesota contingent came marching by 
on Constitution Avenue, it was led by a high school friend of mine who 
had been wounded with the 25th Division. He was pushing his buddy in a 
wheelchair; they had both been blown up when their armored personnel 
carrier had been hit by rocket propelled grenades.
    Forsaking my young family, I jumped off the curb and joined the 
parade, marching along together with the other veterans, swept up in 
the joy and gratitude of all of the veterans. We finally felt that our 
service to our country was beginning to be recognized. We had fought 
and served and suffered in the most unpopular war in American history. 
More than fifty-eight thousand of us had died. And finally, we felt 
some measure of thanks and appreciation and acknowledgment for our 
service, thanks to Jan Scruggs and all of the other determined people 
who got this Wall built.
    And today it is the most popular Memorial in Washington, with more 
than four million visitors a year.
    But, as Chairman Pombo has observed, more than half of the visitors 
to this Memorial were born after the Vietnam War ended. Many--perhaps 
most--have little or no knowledge of why the war was fought, how we 
became involved, whether we won or lost or just fought to a draw, and 
what we learned from one of the most wrenching American experiences of 
the Twentieth Century. And no museum in Washington deals with this 
subject in any depth.
    What could be more appropriate to redress this gap in our knowledge 
and understanding than this Visitors Center? What better way could 
there be to teach our young people, and young people around the world, 
about some of our most precious ideals:
    <bullet> LThe value of service to one's country, even for an 
unpopular cause;
    <bullet> LThe courage to speak out in a democracy, for or against 
any issue;
    <bullet> LThe bravery of those who fought, even when they knew the 
American public was ambivalent or antagonistic;
    <bullet> LAnd finally, the healing that is still needed, for those 
who lost loved ones, for the veterans who suffered and were forever 
changed, and for the nation to close the wounds that this war left on 
the American psyche.
    What better place could there be for a Visitors Center, than here 
at this sacred wall? Building it here will stimulate millions of 
Americans to learn more about the Vietnam War and the lessons it 
teaches us. This is in the best tradition of war memorials, which are 
built so that future generations will always remember, will never 
forget, the sacrifices that were made.
    Almost forty years ago, when I was a Specialist Four hoping to 
survive in Vietnam, I found a paperback book in a PX by the great 
French journalist, Bernard Fall. That book educated me about the roots 
of the conflict. After I read it, I finally understood something about 
how I--and the other 550,000 Americans on the ground then--had ended up 
in what many thought was a quagmire. I was grateful for that book, 
because it brought me understanding. If, by building a Visitors Center 
in this sacred space we can bring some similar measure of understanding 
to the millions of young people who visit this hallowed ground each 
year, our capital and our nation will be the better for it.
    Thank you very much for the privilege of testifying today.
                                 ______
                                 
    Mr. Radanovich. Mr. Prichard, thank you very much. 
Appreciate your testimony.
    Mr. James Kimsey, welcome to the Committee, and if you 
would like to begin your testimony as well, you are welcome to 
do so.

    STATEMENT OF JAMES V. KIMSEY, FOUNDING CEO AND CHAIRMAN 
        EMERITUS, AMERICA ONLINE, INC., WASHINGTON, D.C.

    Mr. Kimsey. Thank you, Mr. Chairman. As a Vietnam veteran, 
a graduate of West Point, and a native Washingtonian, I am 
honored to be part of these proceedings today. For more than 3 
years, I have been actively involved with the efforts by the 
Vietnam Veterans Memorial Fund to place a visitor center at the 
Memorial.
    I would like to state for the record that I fully support a 
visitor center at the Vietnam Veterans Memorial.
    Currently I serve as Chairman of the Vietnam Veterans 
Memorial Corporate Council, business leaders who represent many 
of the world's largest corporations and who all share the 
common bond of service in the Vietnam War. The Corporate 
Council works to move forward the Memorial Fund's mission of 
honoring, healing, and educating through several innovative 
outreach programs.
    Just over 5 years ago, it was the Vietnam Veterans Memorial 
Corporate Council that brought forward the idea of expanding 
the mission of the Vietnam Veterans Memorial Fund to include 
the education about the impact of the Vietnam War. What 
resulted was a comprehensive curriculum kit featuring a 
teachers' guide, books, and other valuable resources. The 
educational program, known as ``Echoes from the Wall,'' was 
sent free of charge to the Nation's 40,000 secondary schools.
    Today, teachers and students throughout the U.S. are 
benefiting from the educational programs of the Vietnam 
Veterans Memorial Fund. But that good start cannot end in 
America's classrooms. It must continue when those students 
visit our Nation's capital. It must continue when they visit 
the Vietnam Veterans Memorial. This underground visitor center 
must be here on this site.
    As the founding CEO of America Online, I have been an 
ardent supporter of technology and education, and through my 
foundation I have been dedicated to helping bring a brighter 
future for and tapping into the vast potential of this area's 
youth. I sit on numerous boards and lend my support to many 
civic and charitable organizations.
    Throughout this work, I have had the opportunity to speak 
with educators about challenges that they face in today's 
classrooms. I have listened carefully to their concerns. One of 
their biggest: making history relevant so our young people 
understand the principles that helped to build our country and 
make it the most powerful in the world.
    A few years ago, we commissioned a survey about Vietnam War 
education in America's secondary schools. Vietnam, as you have 
heard, was the longest war in our Nation's history. It 
splintered this country unlike any other in modern history.
    But students do not learn about Vietnam. In fact, the 
survey found that high school students are taught less about 
the Vietnam War than any other major American conflict.
    Only one-third of students between the ages 12 and 17 is 
taught about the Vietnam War as opposed to nearly two-thirds 
who learn about the Revolutionary War and World War II. It also 
found that less than two-thirds of students between the ages of 
12 and 17 know on which continent Vietnam is located. Thirteen 
percent of the students thought that Vietnam was located in 
Europe, and 3 percent of the respondents believed Vietnam was 
in North America.
    Mr. Chairman, as we celebrate the Wall and all that it has 
accomplished, we realize there is more to be done. Our most 
important mission: educating our children about the war, our 
Nation's longest and most divisive conflict.
    There are some who have referred to Vietnam veterans as 
America's forgotten veterans. I reject that. All you here today 
will have the power to make certain that those veterans and 
that war will not be forgotten.
    We will teach our children the lessons we learned as 
soldiers and as a country, and we will accomplish two goals: 
first, we will educate our country's youth; and, second, we 
will continue the Wall's work at healing our Nation.
    Many of our country's children know very little, if 
anything, about the Vietnam. There is a generational 
disconnect. We cannot let this happen, not as veterans, not as 
a Nation.
    We were young men and women fighting in an unpopular war, 
the youngest armed forces the U.S. has ever sent into combat. 
So when we embark on our educational outreach to young people 
across the U.S., they will be able to understand that the 
Vietnam War was not some political battle of old men in a 
faraway land.
    These were people almost their own age, faced with 
difficult choices and incredible challenges--challenges that 
they may have to face someday. They should be ready and we owe 
it to them to make sure they are.
    Mr. Chairman and members of the Committee, I encourage you 
to support H.R. 1442 to ensure that our Nation's young people 
will have the opportunity to learn about service and sacrifice 
at the Vietnam Veterans Memorial for generations to come.
    Thank you.
    [The prepared statement of Mr. Kimsey follows:]

   Statement of James V. Kimsey, Founding CEO and Chairman Emeritus, 
                 America Online, Inc., Washington, D.C.

    Mr. Chairman and Members of the House Resources Committee as a 
Vietnam veteran, a 1962 Graduate of West Point and a native 
Washingtonian, I am honored to be part of these proceedings today. For 
more than three years, I have been actively involved with the efforts 
by the Vietnam Veterans Memorial Fund to place a Visitor Center at the 
Vietnam Veterans Memorial.
    I would like to state for the record that I fully support a Visitor 
Center at the Vietnam Veterans Memorial.
    Currently I serve as Chairman of the Vietnam Veterans Memorial 
Corporate Council, business leaders who represent many of the world's 
largest corporations and who all share the common bond of service in 
the Vietnam War. The Corporate Council works to move forward the 
Memorial Fund's mission of honoring, healing and education through 
several innovative outreach programs.
    Just over five years ago, it was the Vietnam Veterans Memorial 
Corporate Council that brought forward the idea of expanding the 
mission of the Vietnam Veterans Memorial Fund to include Educating 
about the impact of the Vietnam War. What resulted was a comprehensive 
curriculum kit, featuring a teachers' guide, books and other valuable 
resources. The Educational program, known as Echoes From The Wall, was 
sent free of charge to the nation's 40,000 secondary schools.
    Today, teachers and students throughout the U.S. are benefitting 
from the educational programs of the Vietnam Veterans Memorial Fund. 
But that good start cannot end in America's classrooms. It must 
continue when those students visit the Nation's Capital. It must 
continue when they visit the Vietnam Veterans Memorial. This 
underground Visitor Center MUST be here--on this site.
    As the founding CEO of America Online, Inc., I have been an ardent 
supporter of technology and education, and through my Foundation I have 
been dedicated to helping bring a brighter future for, and tapping into 
the vast potential, of this area's youth. I sit on numerous boards and 
lend my support to many civic and charitable organizations.
    Through this work, I have had the opportunity to speak with 
educators about challenges that they face in today's classrooms. I have 
listened carefully to their concerns. One of their biggest: making 
history relevant so that our young people understand the principles 
that helped to build our country and make it the most powerful in the 
world.
    A few years ago, we commissioned a survey about Vietnam War 
education in America's secondary schools. Vietnam was the longest war 
in our nation's history. It splintered this country unlike any other in 
modern history.
    But, students do not learn about Vietnam. In fact, the survey found 
that high school students are taught less about the Vietnam War than 
any other major American conflict.
    Only one-third of students between ages 12 to 17 is taught about 
the Vietnam War as opposed to nearly two thirds who learn about the 
Revolutionary War and World War II. It also found less than two-thirds 
of students between the ages of 12-17 know on which continent Vietnam 
is located. Thirteen percent of the students thought that Vietnam was 
located in Europe and 3% of the respondents believed Vietnam was in 
North America.
    Mr. Chairman and Members of Committee, as we celebrate The Wall and 
all that it's accomplished, we realize there is more to be done. Our 
most important mission: Educating our children about the war--our 
nation's longest and most divisive conflict
    There are some who have referred to Vietnam veterans as America's 
Forgotten Veterans--I reject that. All you here today will have the 
power to make certain that those veterans and that war will not be 
forgotten.
    We will teach our children the lessons we learned as soldiers and 
as a country, and we will accomplish two goals. one, we will educate 
our country's youth, and two, we will continue The Wall's work of 
healing our nation.
    Many of our country's children know very little, if anything, about 
the Vietnam War. There's a generational disconnect. We cannot let this 
happen, not as veterans, not as a nation.
    We were young men and women fighting in an unpopular war, the 
youngest armed forces the U.S. has ever sent into combat. So, when we 
embark on our educational outreach to young people across the U.S., 
they will be able to understand that the Vietnam War was not some 
political battle of old men in a faraway land.
    These were people almost their own age, faced with difficult 
choices and incredible challenges; challenges they may have to face 
someday. They should be ready and we owe it to them to make sure they 
are.
    Mr. Chairman and Members of the Committee, I encourage you to 
support H.R.1442 (The Vietnam Veterans Memorial Visitor Center Act) to 
ensure that our nation's young people will have the opportunity to 
learn about service and sacrifice at the Vietnam Veterans Memorial for 
generations to come.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Kimsey.
    Mr. Stanley Karnow, thank you very much for being here. 
Welcome to the Subcommittee.

    STATEMENT OF STANLEY KARNOW, PULITZER PRIZE JOURNALIST, 
                       POTOMAC, MARYLAND

    Mr. Karnow. It is certainly an honor to be invited to speak 
here. I am a grunt reporter, and I want to tell you that my 
span in Vietnam goes back a long way.
    As a reporter, I made my first trip to Vietnam in the 
summer of 1959. I happened to be in Saigon working for Time 
magazine when I heard that two American military advisers had 
been killed at Bien Hoa, which was a camp, a military camp, 
about 25 miles north of Saigon. So I naturally drove up there, 
gathered the details, and wrote a piece for my magazine, which 
earned all of three paragraphs, which, of course, was all it 
deserved at the time. This was a pipsqueak incident in a 
faraway place that nobody had ever heard of.
    Of course, looking back, it is hard to imagine, impossible 
to imagine that I was a witness to one of these moments of 
history. I have spent a lot of my time at historic moments that 
I didn't know were historic at the time. And I want to say that 
the two military advisers are the first two names on the Wall: 
Major Dale Buis and Master Sergeant Chester Ovnand. And, of 
course, as has been said, I could never have imagined that 
these were going to be at the head of more than 58,000 names on 
the Wall, which, of course, nobody had ever thought would exist 
at the time.
    If I could just inject one more point, when we talk about 
the number of Americans who died in Vietnam--I know it is not 
within the purview of this--I want to remind people that 
something like 2 to 3 million Vietnamese also died in the war, 
and I am talking about Vietnamese on both sides. And I read in 
the paper this morning that a memorial is going up in Southern 
California to the South Vietnamese soldiers who died.
    Well, I think a lot of this would have been forgotten if 
the Wall had not been built. The struggle, of course, was the 
most divisive war we fought since the Civil War, ripping the 
country apart and, has been said, returning veterans were 
criticized either for failing to make progress or criticized by 
critics of the war for committing atrocities of one sort or 
another. I think these were despicable accusations.
    I have a lot of reservations about the war. That is another 
matter which is not for this discussion here. But whatever one 
thought about it, the veterans, the men who fought the war, the 
men and women who fought the war were not responsible for it. 
The responsibility lies with our political leaders and our 
military leaders.
    And if I could just digress for an anecdote, I was on a 
panel the other day with a former member of Lyndon Johnson's 
administration who told me about all the mistakes and all the 
lies that they told during the war. And he ended and said, 
``Well, I don't want to blame anybody,'' he said, ``looking 
back.'' And I kind of lost my temper in this very sedate 
surrounding, the Council on Foreign Relations. I said, ``What 
do you mean, you don't want to blame anybody? There are 58,000 
dead and you don't want to blame anybody? What are we supposed 
to do? Just forget about it?''
    At any rate, as you know, Robert McNamara wrote a book in 
which--a dismal book, in my opinion--in which he said we were 
wrong, terribly wrong. And, you know, Senator--what's his 
name?--from Georgia. Senator Cleland.
    Mr. Radanovich. Max Cleland.
    Mr. Karnow. Max Cleland said, ``McNamara should have called 
that book `Sorry About That.'''
    At any rate, the founders and patrons of the Wall, and Jan 
Scruggs in particular, have been involved in many projects that 
go beyond the Wall itself, and one of them, of course, is the 
Teaching Center, and I think it is vital to educate young 
people. I am interested to hear that not many know about the 
war, but I must say that I get phone calls every month or so 
from some high school student who wants me to write his term 
paper for him. And people ask me questions, and I find that 
there is a certain amount of interest in the war.
    And I think, again, being the last hitter on this panel, I 
tend to--I think I may be repeating what has already been said. 
I think it is vital that people understand it so that we avoid 
terrible situations and tragedies like this again.
    The Wall was intended to commemorate the dead, and I think 
it has succeeded admirably. And I think the center will 
transcend that function and become both educational and, I 
think, an instrument of good will and help to promote peace in 
a way by avoiding situations like Vietnam.
    Thank you.
    [The prepared statement of Mr. Karnow follows:]

          Statement of Stanley Karnow, Pulitzer-Prize Winner, 
                       Author, Vietnam: A History

    By chance I was in Saigon in July 1959 as a correspondent for Time 
when I heard that two U.S. military advisers had been killed at Bien 
Hoa, a South Vietnamese army camp about 25 miles north of the city. I 
quickly drove to the base through the torrid tropical heat, gathered 
the details and wrote a report of the incident. It earned only a couple 
of paragraphs in the magazine--all the minor event deserved.
    But, looking back, it was far more significant than I imagined. I 
had witnessed the opening shot of a war that would drag on for the next 
14 years--the longest in our history and our only defeat. Nor did I 
envision that the names of the slain men, Major Dale Buis and Master 
Sergeant Chester Ovnand, would ultimately head the roster of more than 
58,000 others engraved on the poignant Memorial Wall in Washington.
    Perhaps those heroes would be forgotten if The Wall had not been 
built. The struggle, the most divisive since the Civil War, ripped the 
country apart. Returning veterans were often castigated by supporters 
of the conflict for its failures, or vilified by its critics of 
committing atrocities. The accusations were despicable. The troops who 
fought and died in Vietnam were not responsible for the involvement in 
Southeast Asia. The architects of the venture were politicians and 
senior officials, some of whom have conceded that it was a mistake.
    The Wall has dramatically changed public opinion. Since its 
construction, Americans of widely divergent views have come to the 
realization that the servicemen were fulfilling their duty. This 
reassessment is mirrored in the fact that the monument is the most 
visited in the nation's capital. So it stands as a vivid symbol of both 
unity and redemption. Vietnam is behind us, but it reminds us of one of 
the most tragic experiences in our country's experience.
    To their credit, its founders and patrons are now engaged in 
several ambitious projects that reach beyond the monument itself. One 
of the most important is the effort to educate young Americans on the 
war. Teachers have been provided with curriculums and other materials 
that will enable them to instruct their students, either directly or 
through the Internet. The response to the program has been 
overwhelmingly positive, and I am proud of the role I played in its 
formulation.
    This, however, is just one part of the outreach. Today, so many of 
the visitors to the Memorial are far too young to recall the events of 
the Vietnam War themselves. A visitor center on the site of the Vietnam 
Veterans Memorial would go far in illustrating the human toll of this 
period in history. This visitor center would serve to create a context 
for the existence of the Vietnam Veterans Memorial, presenting a 
historical background of the conflict and the subsequent construction 
of the Memorial. The names on The Wall represent not only a period in 
time that cannot be ignored, but tributes to individuals that will 
forever be caught in that era.
    I closely observed the complex and astounding events that 
transpired throughout the Vietnam War. As an historian and journalist, 
I believe the visitor center at the Vietnam Veterans Memorial is 
unequivocally necessary in providing a proper educational experience 
for all visitors. With several million visitors to the Memorial each 
year, the potential to make an impact on these people is an opportunity 
that cannot go untapped. The effort is well worth ensuring that each 
visitor walks away with a better understanding of the Memorial and our 
nation's history for generations to come.
    The Wall was originally intended to commemorate the dead, and it 
has succeeded admirably. But with the visitor center here, on this very 
site, it will transcend that function to become an instrument of 
goodwill and that elusive dream--peace on earth.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Karnow. I appreciate that 
very much.
    Now it comes time on the Committee where members may ask 
questions. I am going to lead off with one. I have the 
privilege of representing Yosemite National Park in California. 
And I got to tell you, you can't hiccup in that park without an 
environmental impact statement and upsetting thousands of 
people whenever you propose to do anything in Yosemite. And the 
Mall is very similar to that. It is beloved certainly by all 
people in the United States, but when you begin to discuss 
development on the Mall, it always raises controversy. That was 
my first thought when the issue of a visitor center for the 
Vietnam Memorial came up.
    And it sounds like all of you gentlemen have been involved 
in this for a number of years. Can you give me a sense of--you 
know, there is a difference as a visitor center that looks like 
a couple of double-wide mobile homes that are sitting on top of 
the ground as opposed to something that may be underground. And 
I have heard the issue of underground. But can you speak at all 
to what might have been some preliminary designs over the years 
and what it might look like and also speak to the issue of 
development on the Mall?
    You may want to respond by demonstrating the need for the 
visitor center, although I think it was fairly well established 
I your testimony. I think the issue is development on the Mall 
and how something like this might be accomplished in an 
unobtrusive way. And I would ask that to the panel in general, 
if anybody in particular wants to respond to it.
    Mr. Karnow. I am not very good on architecture. I was 
thinking one kind of model that might be interesting is if you 
have been in Paris, in the courtyard of the Louvre, there is 
that pyramid that was designed by I.M. Pei. To some people it 
is controversial. But what is interesting is you go downstairs, 
and there is an underground place which is absolutely 
marvelous.
    If you took the pyramid away, you could still have a way 
down there and so forth. But down there you find all sorts of 
educational things. And I think talking about doing it 
underground I think ought not to offend people who are 
concerned with what the landscape is going to look like.
    Mr. Radanovich. Very good.
    Mr. Kimsey. Let me just add, rather than us going into long 
explanations here, we do have an architect here in Jan Scruggs, 
who is going to cover this in part of his testimony. But we 
have had a couple of preliminary designs that caused some 
agitation, and as Stanley correctly points out, this is an 
underground facility we are talking about. We do have some 
architectural renderings, and it should not cause anybody to be 
upset because it is belowground and it is a natural adjunct to 
the Wall, of course, which is aboveground.
    So I think any detailed questions that anybody has about 
what it is going to look like and how it will affect the 
aesthetics of the Mall, we are prepared, I think, to give you 
some detail on that.
    Mr. Radanovich. Thank you very much.
    All right. I recognize the gentlelady from the Virgin 
Islands, Mrs. Christensen, for any questions she might have.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I guess that pretty much answers my first question. It is 
not a question of an aboveground versus an underground. It is 
pretty well decided underground. OK.
    Was consideration given to doing it away from the Memorial 
itself?
    Mr. Kimsey. It has been suggested that it be away from the 
Memorial, which I believe is counterintuitive. We believe it is 
a natural adjunct to have it collocated with the Wall. It is 
important that the many busloads of kids who come to see the 
Memorial get a broader perspective of the context of the war 
visually.
    We believe this will be a benefit to teachers. As they give 
some precis on what the Vietnam War is all about in 10 minutes 
or less, that it will help the whole educational process, which 
is why many teachers bring their students to Washington, D.C., 
and the Wall is, as you know, the most visited monument in the 
city.
    Mr. Prichard. I think speaking from the museum perspective, 
it is very important that the educational experience be 
adjacent to the object that you are looking at. That is when 
the teaching moment occurs. That is when you have the greatest 
opportunity to reach the people you are trying to reach. And I 
think it would really be a mistake to move it very far away 
from the Mall because people wouldn't go in numbers to it. It 
ought to be next to it or close by.
    Mrs. Christensen. Anybody else?
    Mr. Duvall. One, the Wall is the impact, and then you go 
downstairs, it is another impact. So there are two instances of 
impact that they need to be adjacent, I think, because it is an 
immediate thing you can't separate, really.
    Mrs. Christensen. I just had one other question. Thank you 
for those answers.
    No Federal funds are supposed to be used in the planning, 
design, construction, operation, and maintenance. Could any of 
you speak to the outlook for fundraising? How much needs to be 
raised? And how optimistic are you that that is going to be 
successful?
    Mr. Kimsey. Anybody that has had any experience with Jan 
Scruggs knows, as that Wall testifies, he is nothing if he is 
not indefatigable and persistent. He has got numbers and 
estimates and so forth, but it is true that there is no 
intention to use public funds to build this, and there is no 
doubt in my mind that Jan would be able to raise the money to 
build it.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I now recognize the Chairman of the Resources Committee, 
Mr. Pombo.
    The Chairman. Thank you.
    I thank the panel for your testimony. I think as I sat here 
and listened to you talk about your experiences and your desire 
to help in building this visitor center, I think it stirred the 
emotions in all of us. And as I was sitting here listening, I 
was thinking that the thing about this Wall, about the 
Memorial, the thing that we all love the most about it and hate 
the most about it is the same thing, and that is the emotions 
that it stirs up in all of us.
    There is not a huge amount of controversy in Congress right 
now about the need to do something like this. And I think that 
you can tell by the line of questioning that the question is 
whether or not to put it here and what the impact is going to 
be on the rest of the Mall and the rest of the memorials and 
the monuments that are built here.
    That is what we have to fight again. Since we started 
talking about this, since the legislation was introduced, none 
of my colleagues has told me that there is not a reason to do 
this. But they do question here, you know, where to do it, how 
to do it, what is going to look like, and I think the job that 
we have and that you have is just to educate members and to 
work with them and to answer their questions about what the 
impact is going to be on the site and how that is all going to 
fit together. I think that is going to be our biggest challenge 
that is ahead of us in trying to move forward.
    I don't really have any questions for you. I think you guys 
did a fantastic job of presenting your side of this and your 
opinion. I just look forward to working with all of you in the 
future so that we can hopefully see this done in a timely 
fashion and without a huge amount of controversy through the 
Congress. So thank you all very much.
    Mr. Radanovich. Thank you, Chairman Pombo.
    I now recognize Mr. Dennis Cardoza from the Central Valley 
of California. Dennis?
    Mr. Cardoza. Thank you, Mr. Chairman. I don't have a 
question for this panel, but I do want to say that I had the 
pleasure of having dinner with several of them last night, and 
their dedication and commitment to this project is just very 
special. And I salute you all for your work and for your 
efforts, and I look forward to working with you as you move 
forward and make this a reality. I am honored to serve with 
you.
    Mr. Radanovich. Thank you, Mr. Cardoza.
    I recognize Mr. Peterson from Pennsylvania.
    Mr. Peterson. Thank you very much, Mr. Chairman.
    I want to thank this panel for your leadership, your 
vision. For me, the Vietnam War was very real because my next 
youngest brother went there, served for 14 months, and his name 
is Bruce. And I vividly remember those 14 months of waiting and 
hoping and praying that the letters he sent us and the tapes he 
sent us wouldn't be our only memories, that Bruce would come 
back.
    I live in a small town of 986 people, and I also remember 
Danny Bennett, who lived across the street from me, who I was 
very fond of. And I remember the young Wells boy who I was very 
fond of. They went to Vietnam about the same time my brother 
did, and neither of those returned. And I still see the sadness 
in the eyes of their families, and they were just nice kids. 
They were kids. They were just out of high school. And they 
gave their entire life for us.
    And so the Vietnam War has been very personal to me, and I 
guess we don't realize that if you don't have that sort of 
happening, it is not personalized to many and it is certainly 
not personalized to those who have come after us and weren't 
around when that was there.
    I guess I would say that there are a lot of lessons that 
were learned from the Vietnam War. I think as we watch this 
administration as it came into some involvements, they didn't 
make some of the mistakes that were made in Vietnam. Because 
when we decide to have a conflict, we win, we get it over with. 
We don't do it in stages. We don't do it in degrees. We don't 
decide whether we should turn it over. When we make a decision 
to fight, we win.
    And if we don't remember history, we have the likeliness to 
repeat it. And I think it is vital to this country to 
understand the intricacies of the Vietnam War, the mistakes 
that were made there so that we don't repeat them.
    And I just want to commend each and every one of your for 
your leadership. I mean that sincerely. This is history that 
has to be personalized for all Americans, and I guess I just 
challenge you. How do we personalize it? It will be forever 
personal to me and my family. I have vivid memories that will 
never fade in my mind as long as I am alive, and I will teach 
that to my grandchildren and children. But I think it is vital 
that all of America understand the difficult time that the 
Vietnam War was in this country. But the lives that were given, 
you know, brightest and best young people who went and never 
came back, and we mustn't forget them and we must not forget 
the message that they gave to us and that we learned from that 
war.
    And so I just encourage you to continue with your 
creativity of how we personalize this for all Americans so we 
never forget.
    Mr. Radanovich. Thank you, Mr. Peterson.
    Jim, did you have any questions?
    Mr. Gibbons. No, but I would just like to make a few 
comments.
    Mr. Radanovich. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. Sitting 
over here on this side as a Republican with the Democrats tells 
you that we are all in this together. This is a bipartisan 
effort, a nonpartisan effort on behalf of this Committee, to 
recognize the service of those people who served in that time. 
And as a veteran of the Vietnam War myself, I can say that we 
can show no greater love, no greater respect than to recognize 
the service of those individuals who served their country and 
served their country to the ultimate sacrifice in that war.
    I am one of the original cosponsors on this bill, and I am 
really glad that we are here and we are here today in what 
appears to be a very similar day to the rainy season in that 
part of the world that our young men and women served in and 
the difficulties that they encountered. This is something that 
I think everybody in this country would support, encourage, and 
enjoy once we have completed our goal here of this visitor 
center.
    So I want to thank the witnesses who have appeared before 
us today and give them our greatest admiration for coming out 
in this day to help us with this bill. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Gibbons.
    Ms. Bordallo, did you have any questions of the panel?
    Ms. Bordallo. No, thank you, Mr. Chairman. But I couldn't 
help but listen to all of the witnesses here this morning. They 
are such a distinguished panel, and they are all from varied 
backgrounds. And yet they all had the same thoughts and are 
together in support of this Memorial and this visitor center. 
And I think it is wonderful that we have brought them all 
together in support, and I am looking forward to hearing the 
other panels that we have this morning.
    Again, I would like to reiterate that I am also a cosponsor 
of this bill. Thank you.
    Mr. Radanovich. Thank you, Ms. Bordallo.
    We are honored to be joined by the Chairman of the Armed 
Services Committee, Mr. Duncan Hunter, from California, another 
Californian. Duncan, welcome to the Committee. If you have any 
questions, please feel free.
    Mr. Hunter. Well, thank you, Mr. Chairman. Thanks for 
letting me come down and put in my 2 cents' worth. And thanks 
for having the hearing, and, Mr. Pombo, thank you for letting 
me know about it and trying to make sure I got down here.
    Let me just offer my experience with respect to this type 
of a project and some thoughts that I have about it. You know, 
we had an exhibit in the Smithsonian on World War II, and it 
was designed by one of the executives in the Smithsonian, and 
the effect of it, which got some Members of Congress on the 
prod, the message in that exhibition, it was about the Enola 
Gay and the bombing of Hiroshima and Nagasaki. And the thrust 
of the message in that exhibit was that the Americans were very 
cruel people.
    I remember part of the text that was written originally, 
proposed for that exhibit, was that the Americans did with low-
level bombing in Germany and Japan things that even Adolf 
Hitler wouldn't do with respect to hitting centers of 
population.
    The thrust of the message was that we were pretty rotten 
people, and a number of us met with the Smithsonian and we 
ended up being able to change the direction of that exhibit. I 
don't know how many folks here are familiar with that, but the 
message to me was what you exhibit carries a message. And so 
with respect to having a visitor center, I think visitor 
centers are darn good if they carry the right message. And I 
think one message that the American people learned by having 
all of these reporters embedded in the operation in Iraq was 
that GIs are good people. They had never seen that before, at 
least in modern times, and certainly never to the degree that 
was made possible by all of this real-time camera work that was 
coming back to the American audience that was fixated on that 
operation. But they saw that GIs were good people, that they 
cared about the non-combatants, that they were careful, that 
they had compassion, that they served our country well and 
honorably.
    And, you know, I thought about that when that operation was 
over, and I had initially been against, incidentally, embedding 
news media with the troops and had commented on it and written 
to the Secretary because I thought it would distract people 
from doing their job. But it turned out to be a wonderful thing 
because it gave the real picture of the American GI to the 
American people.
    Now, I contrasted that with what was written or what was 
shown about Vietnam with respect to movies, TV series, and 
having watched the last movie that I saw about Vietnam, and one 
of the few that I thought that was good, ``We Were Soldiers,'' 
with Hal Moore, was a movie that reflected the real goodness of 
the American GIs. And I thought before that, ``The Green 
Berets'' did the same thing, a movie made by John Wayne, I 
think in 1966 or 1967.
    In between, you had a number of movies that reflected 
Americans as being people that couldn't wait to get to the next 
village to burn it, which was not true, not accurate; people 
who took out enormous anger and psychiatric problems on the 
villagers of Vietnam, which was not true; and an image that was 
totally false. That image was created by folks in Hollywood, 
most of whom had never seen Vietnam, but who viewed Vietnam 
through the prism of their own political perspectives.
    So I just wanted to say, Mr. Chairman, that what is shown 
in this exhibit is very important, and I am all for this 
exhibit if it shows the honor and the goodness of American GIs, 
and, I think, Mr. Chairman--and I speak for myself--the honor 
of the cause. The only time when Vietnam had any freedom, any 
modicum of freedom--and if anybody thinks that they have got a 
modicum of freedom today, please go on over and take a look--
was when the Americans were there.
    And I looked at the rules. I was reading the rules again 
the other night, the rules that were laid down by Washington, 
where our fighter pilots and bomber pilots were admonished not 
to hit targets because civilians were there. I remember as a 
platoon leader in Vietnam being given the order through 
headquarters that you can't bring artillery on that base in the 
Sui Kai Valley because there might be people nearby, even 
within a thousand meters, even within a kilometer of that 
particular location.
    And so, Mr. Chairman, I fully endorse the idea of having a 
visitor center. I think it is good. But I think that message 
has to be an accurate message. And if it is a message which is 
aberrated through the prism of people who didn't like the 
United States activity there and want to make an editorial with 
respect to it by modifying whatever is displayed in this center 
or who somehow came to the conclusion that the GIs who were 
over there on the whole and as a group weren't outstanding 
Americans, then I don't want to support it because I think that 
is one of the great disservices that we did to our folks who 
came back. And if you watched those young GIs and the 
reflections on them that were so good through the American news 
media who showed what they were really doing in real time, I 
had to kind of reflect, you know, those are the kids of the 
guys who were in Vietnam. And you know something? The guys who 
were in Vietnam were just as good. They weren't there with 
``Full Metal Jacket.'' They weren't there with ``Apocalypse 
Now'' and all this other stuff of looking for the next village 
to burn or looking for the next villager to beat up. On the 
whole, they were outstanding Americans. And the story of that 
honor and determination is just now beginning to be told.
    So this monument or this visitor center can be a tool in 
that accurate telling of what kind of people these folks were, 
or it can continue what is now beginning to die out, especially 
in the wake of the Iraq operation, but this distorted view of 
the character of the folks who served in Vietnam.
    So thank you, Mr. Chairman. Don't put me down as undecided.
    Mr. Radanovich. Thank you, Mr. Chairman. I appreciate that.
    Before I let you gentlemen go, can you give me an idea--and 
this might be more appropriate for the next panel, but are we 
within view of where it is thought the visitor center might be?
    Mr. Kimsey. I think the next panel--Jan will show you 
exactly where it is going to be, and I have been sitting here 
the whole time this testimony is going on watching platoons of 
kids circle that Wall, and I am sure they would all be 
clustered in that underground visitor center right now.
    Mr. Radanovich. Getting educated.
    Gentlemen, I want to thank you very much for being here as 
witnesses and your testimony today. I really appreciate it. And 
with that we will move on to the next panel. Thank you very 
much.
    Mr. Radanovich. If everybody will sit down, we will begin 
with our next panel. Joining us is Mr. Dennis Cullinan, 
Legislative Director for the Veterans of Foreign Wars, 
Washington, D.C.; Mr. Rick Jones, the Legislative Director of 
AMVETS, Lanham, Maryland; Dorothy Oxendine, the National 
President of the American Gold Star Mothers, Incorporated, from 
Washington, D.C.; and also Jan Scruggs, who is the Founder and 
President to the Vietnam Veterans Memorial Fund in Washington, 
D.C.
    Ladies and gentlemen, thank you for being here. Welcome to 
the Subcommittee. And, Mr. Scruggs, if you would like to begin 
your testimony, we will work 5 minutes each all the way down 
the line and then open up the panel for questions.

STATEMENT OF JAN CRAIG SCRUGGS, FOUNDER AND PRESIDENT, VIETNAM 
            VETERANS MEMORIAL FUND, WASHINGTON, D.C.

    Mr. Scruggs. Mr. Chairman, I would like to begin especially 
now by recognizing young people, those who will be served by 
this patriotic visitor center, from the Agnon School in Ohio 
and from Osborne School in Manassas, Virginia. I believe they 
have some signs they want to hold up.
    Mr. Radanovich. I think they disappeared on us.
    [Laughter.]
    Mr. Scruggs. That is what happens when--oh, there they go. 
Well, you missed it by a few minutes, but they had a bunch of 
signs to hold up.
    Maybe to continue a little bit of levity before we get into 
the serious issues at hand, you may be just sort of interested 
in the legislative history of the visitor center bill, which 
was supposed to pass Congress. It was on the unanimous consent 
calendar of the U.S. Senate October 27 of the year 2000. One 
Senator pulled it off. It was then inserted in a supplemental 
appropriations bill December of 2000. The same Senator's staff 
took it out of the appropriations bill. It was next placed on 
the unanimous consent calendar May 23rd of the year 2001. 
Another Senator took it off the unanimous consent calendar who 
wanted hearings. We did have hearings. And last year, this last 
Memorial Day, we had had the hearings. It was on the unanimous 
consent calendar. Yet another Senator--we always had 99 votes, 
but one Senator took it off and kept his hold on the 
legislation until it ended. And about a month ago, the efforts 
of a number of Senators, very serious legislators, attempted to 
put it into a supplemental appropriations bill. Once again we 
had 99 people ready to pass the bill but one who stopped it.
    It is an honor to be here. Others will be speaking of the 
very compelling case for the visitor center to serve the 
public. Therefore, I will turn my testimony to other issues 
which I think are of great interest and significance to you. I 
last testified in front of this Committee March 2000 on the 
issue of a plaque honoring veterans who died prematurely due to 
their military service. We really expressed reservations about 
the precedent of adding new things to the Memorial. But we 
promised this Committee that if this bill passed, we would hire 
prominent architects and get the job done, this unfunded 
mandate.
    I will turn at this time to my first exhibit, Exhibit 1 and 
1-A in your packet and on those signs. This is the actual 
plaque that will be placed here at the Vietnam Veterans 
Memorial. It would be close to the size of that. It will be 
placed near the statue. There was an earlier design, absolutely 
terrible, amazingly turned in by the National Park Service, and 
it was rejected by all parties. We hired the very finest 
architects available, including men who designed Constitution 
Gardens, and they did the appropriate siting, appropriate 
plaque. All we are waiting for is a construction permit and a 
final budget from the American Battle Monuments Commission.
    The Senate, on June 3rd--by the way, that concludes my 
discussion of that issue--will be considering S. 296. This is 
legislation calls for adding new names to the Memorial, 
literally more names than will fit on the Memorial itself. We 
don't think this is a good idea, obviously, but this 
legislation and the plaque legislation and future legislation 
are metaphors for the desire of people to be recognized here: 
scout dog handlers, CIA agents, Red Cross workers and others. 
And this is yet another reason why the visitor center must be 
built, to save the site from future memorialization. We can 
recognize them in the visitor center in some way.
    A new lighting system for the Wall, by the way, has been 
designed. We have received all approvals. The lighting scheme 
will cost approximately $350,000 to install, paid for by the 
Vietnam Veterans Memorial Fund. We have already paid about 
$75,000. I note this because this is an example of our 20 years 
of partnership with the National Park Service working on very 
important issues.
    At this time, we have for the past year paid a private 
electrical contractors, Power Solutions, a company here in 
Washington, to maintain the lights at the Vietnam Veterans 
Memorial. They come each week. They change the gaskets. They 
change the light bulbs, transformers. They recently replaced 
some transformers until we can get the new lighting system in 
place.
    We built this Memorial without any money from the U.S. 
Government. We will build this visitor center without any money 
from the U.S. Government as well. We take pride in that. We 
take pride in the fact that we think we are saving the 
taxpayers a little bit of money here.
    We are very honored as well to provide advice to the World 
Trade Center Memorial design competition, which is now 
underway, is being modeled after our design competition. 
Exhibit 2 is a letter showing the appreciation of the Office of 
the Mayor of New York for our work. We have done work as well 
on the Oklahoma City Memorial, the National Police Officers 
Memorial, and have given advice as well to Mr. Robert Dole with 
the World War II Memorial.
    We do appreciate the support of the Bush administration for 
the visitor center. Exhibit 3 is a letter from National Park 
Service Director Fran Mainella, who points out our 20 years of 
cooperation and expresses her support for the underground 
visitor center.
    Mr. Chairman and members of the Committee, I am informed 
that we have surprise testimony today, shocking testimony to 
me, from Mr. P. Daniel Smith, representing the National Park 
Service. He will testify that the letter, the representations 
of support for the visitor center are null and void, and his 
testimony, which I would love an opportunity to rebut in 
person, will come out against this.
    Mr. Radanovich. Mr. Scruggs, if you could wrap up, please, 
you are beyond the 5 minutes.
    Mr. Scruggs. OK. Let me just go through the exhibits real 
quick, if I may.
    Exhibit 5 is a soda stand, which is right here next to--
    Mr. Radanovich. Mr. Scruggs, actually, if you want to wait, 
we can ask you questions after you are done.
    Mr. Scruggs. OK.
    Mr. Radanovich. I think that would probably be the best way 
to do it.
    Mr. Scruggs. All right.
    Mr. Radanovich. Since the weather is bad out here.
    Mr. Scruggs. All right.
    Mr. Radanovich. I appreciate that.
    [The prepared statement of Mr. Scruggs follows:]

     Statement of Jan Craig Scruggs, Esq., Founder and President, 
                     Vietnam Veterans Memorial Fund

    It is a distinct honor to be at Washington's most visited 
Memorial--a most compelling and logical place to discuss the reasons 
for H.R. 1442 and to address the issue in its entirety.
    A Visitor Center will transform the Memorial into a profound 
learning experience for America's youth and others who desire the 
optional experience of the Center. Exhibits such as photos of those who 
are on The Wall, with skilled educators on hand, will engage them. 
There will be memorable displays of both the Vietnam War and of 
historic events that have taken place at the most visited Memorial in 
Washington, D.C.
    Young people will gain a better understanding of a Memorial that is 
now older than they are. Further, the Center will help them to gain a 
better appreciation for their visits to the other memorials they will 
see during their time in Washington. These memorials all honor service 
to our great nation, service that has kept our country free.
    I will let others speak of the compelling case for the Visitor 
Center here to serve the public. My remarks will address another 
significant matter--architectural excellence.
    I last testified before this committee in March 2000 on the issue 
of PL 106-214 creating a plaque honoring veterans who have died 
prematurely due to their service. We expressed reservations about the 
precedent, but gave our support for the bill with the proviso that the 
Vietnam Veterans Memorial Fund put together a design team to assure the 
highest standards of architectural excellence be placed into the 
project.
    We did just that. Exhibits 1-A and 1-B are drawings of the design 
by architects JC Cummings, George Dickey and Henry Arnold. These 
architects were paid by the Vietnam Veterans Memorial Fund to obtain 
this striking design. Our architects obtained approval from all the 
relevant agencies. We look forward to its dedication. We simply are 
awaiting a construction permit. The Vietnam Veterans Memorial Fund will 
put into place the funding, if needed, to complete this task.
    Let me also point out that the Senate is considering S.296. A 
Hearing will consider this bill on June 3, 2003. The bill calls for 
adding new names to the Memorial--more names than can fit. This 
legislation, and the Plaque legislation, are metaphors for others 
desiring a presence at the site of The Wall.
    This phenomenon is yet another reason for the Visitor Center where 
different groups--including CIA agents, Red Cross Workers and those who 
are the subject of S296 can be recognized. A brilliant scheme of 
lighting for the Vietnam Veterans Memorial has been designed and we 
have received all approvals. It was the last issue that the respected 
Fine Arts Chairman J. Carter Brown was personally involved with. We are 
merely awaiting a construction permit. The lighting scheme will cost 
about $350,000 to install and will be paid for by the Vietnam Veterans 
Memorial Fund. We have already given over $75,000 to the National Park 
Service to help them pay their contractor. I note this as an example of 
our 20 years of cooperation with the National Park Service in 
addressing the needs here at The Wall. Until the new lighting system 
has been installed, the Vietnam Veterans Memorial Fund will pay 
lighting specialists, Power Solutions, to maintain the lights on a 
weekly basis. Every week since Spring 2002, our electricians visit The 
Wall to make sure that each and every light is functioning properly. We 
have been paying for this ongoing maintenance for over a year.
    The Vietnam Veterans Memorial Fund is honored to have been selected 
to provide advice to the planned World Trade Center Memorial. I am 
proud to say that their design competition is modeled precisely after 
the competition for the Vietnam Veterans Memorial. Again, this 
exemplifies our dedication and reputation for architectural excellence. 
Exhibit 2 is a letter expressing appreciation for our efforts with the 
World Trade Center Memorial. We also have provided advice to the 
Oklahoma City Memorial, the National Law Officers Memorial and to the 
World War II Memorial as well.
    I am honored to have the support of the Bush Administration for the 
Visitor Center. In a letter I received in February 2002 (Exhibit 3), 
National Park Service Director Fran Mainella, whose late husband was a 
Vietnam veteran, wrote: ``For 20 years we have worked together with you 
to support your efforts to increase visitor awareness and understanding 
of the war and its national significance and we look forward to working 
with you in the future. We are very supportive of the concept to 
develop an underground facility to accomplish a continuation of these 
efforts...''
    I now call to your attention Exhibit 4. This shows a huge 
corrugated aluminum building in the shadow of the Lincoln Memorial. How 
could something like this be on our nation's Mall?
    Exhibit 5 is a soda stand--about 200 yards from where we sit today. 
The rusting roof is unsightly. Yet this structure is on the Mall. These 
photos were taken at 10:00 a.m. on May 9, 2003.
    Exhibit 6 is a tourmobile stand--unused sitting in the shadow of 
the Lincoln Memorial.
    Exhibits 7, 8, 9 and 10 are vending areas--which have achieved a 
permanent status at the Vietnam Veterans Memorial. They stay in place 
24 hours a day, 365 days a year. Exhibit 11 is a legal opinion showing 
how their rights as demonstrators can be protected, while allowing the 
National Park Service to require each vendor stand to leave at the end 
of the day.
    Exhibit 12 shows the plan for a visitor center at the Washington 
Monument. This impacts in a significant manner historic sightlines of 
the Mall. The glass area over the Mall also will impact pedestrian 
traffic. I enter this exhibit into the record as an example of what is 
acceptable and enthusiastically endorsed by the National Park Service.
    Exhibit 13 illustrates the Mall area and the Structures therein 
near the Lincoln, Korean and Vietnam Veterans Memorials. These drawings 
are done as close to scale as possible to show what is acceptable on 
the Mall. This provides context to illustrate the minimal impact of the 
Visitor Center.
    Exhibits 14, 15 and 16 show the actual Visitor Center as envisioned 
in operation--with people being educated.
    As you can plainly see the Visitor Center at the Vietnam Veterans 
Memorial is diametrically opposed to the low standards of the exhibits 
you have just reviewed. Nor will it impact the historic sightlines like 
the structure planned for the Washington Monument. The Center will be 
beautiful--as should every structure on the Mall. The underground 
facility will be 10,000 square feet and will provide a profound 
educational experience for visitors who desire this optional 
experience--especially young Americans.
    Of course, there will be an aboveground component to allow ingress 
and egress of the visitors. Architect William Lecky who brought about 
the Korean and Vietnam Veterans Memorials is enthusiastic to begin 
work. With the use of earth tone colors and proper landscaping, there 
will be minimal impact--unlike the structure in the historic vista of 
the Washington Monument. This minimal impact will be far exceeded by 
the educational impact for those like these youngsters here today. 
Again I call your attention to Exhibit 13 which shows the scale of 
structures in existence today.
    Just as we built the Memorial with private funding, so too, shall 
we do so for the Visitor Center. We also will maintain the center to 
spare the government any financial expense. A 20-year lease is in the 
legislation to be reviewed at 7-year intervals. The Vietnam Veterans 
Memorial Fund will staff and maintain the Center pursuant to a 
memorandum of understanding with the Secretary of the Interior with 
whom we will share it for joint purposes including agreed upon uses for 
National Park Service staff. Examples of this arrangement and 
cooperation between Federal agencies and the private sector abound. In 
the Lincoln Memorial--near his statue--is a bookstore. Ford's Theater 
has a museum and has plays that are shown to the public almost daily. 
Go to the Franklin D. Roosevelt Memorial to see a large bookstore/
visitor center--a truly integral component of the visitor experience--
yet of minimal educational value due to its commercial nature.
    For your consideration we have enclosed an independent survey 
(Exhibit 17) showing the overwhelming support for the Visitor Center by 
the American public. As Exhibit 18 we have also enclosed Echoes From 
The Wall, a curriculum package sent to each of America's high schools 
and middle schools by the Vietnam Veterans Memorial Fund. The Visitor 
Center is an extension of our mission to the young people who will one 
day lead our great nation.
    Let us not forget the profound importance of today's hearing. We 
must reach out to America's youth from a place where they can be 
visually, intellectually and emotionally engaged. The Vietnam Veterans 
Memorial is such a unique place. Your decision to allow this long 
delayed Visitor Center will go a long way toward this goal, a goal that 
veterans' groups, educators, journalists and the American public 
strongly supports.
    I end my remarks today by pointing out that this effort has gone on 
for three years. This bill was ready for passage in October 2000, but 
was taken off the Unanimous Consent Calendar by one Senator. In May 
2001, the bill was again on the Unanimous Consent Calendar. Former 
Oklahoma Congressman J.C. Watts, Jr. awaited the bill--again the 
Legislation was removed from the Unanimous Consent Calendar. For 
Memorial Day 2003 again Congressman Watts awaited Senate passage. Again 
the bill was not allowed to come to the Floor for a vote. Despite 
months of efforts by Senators Chuck Hagel (R-NE), John Warner (R-VA), 
John McCain (R-AZ), John Kerry (D-MA), Minority Leader Tom Daschle (D-
SD) and others, the Legislation failed to come to a vote. Thousands of 
individual Americans, educators, school kids, prominent CEOs and 
respected military leaders petitioned Congress--to no avail.
    We learned a great deal. One profound lesson was to begin this 
effort in the House of Representatives. We are grateful to the Members 
of this Committee and their staff. Chairman Pombo looked at the facts 
surrounding the Visitor Center. He decided that the time had come to 
allow democracy and the will of the people to prevail. My thanks to him 
and to Congressman Rahall for making this day come to pass.
    I thank you, our Vietnam veterans thank you and our nation's young 
people thank you.
    [NOTE: All exhibits have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Radanovich. Mrs. Dorothy Oxendine, welcome to the 
Subcommittee, and you may begin your testimony. And we look 
forward to hearing from you.

STATEMENT OF DOROTHY M. OXENDINE, NATIONAL PRESIDENT, AMERICAN 
           GOLD STAR MOTHERS, INC., WASHINGTON, D.C.

    Ms. Oxendine. Mr. Chairman, Congressman Rahall, and members 
of the Committee, it is an honor to be here. This historic 
hearing at the Vietnam Veterans Memorial is noteworthy and 
important. I am Dorothy Oxendine, national president of the 
American Gold Star Mothers--mothers who lost their sons in all 
wars, including Vietnam.
    We meet today at a sacred place--a place where veterans and 
family members come to remember and, often, to mourn. This is a 
place where love is shown--love for those lost in Vietnam.
    Patriotic men and women answered the call there, just as 
they did at Normandy Beach, at Yorktown, and at Gettysburg. In 
a profound sense, this is a resting place for those who did not 
return. They are together here.
    Etched row upon row they serve our Nation still today. They 
serve to remind Americans of the price of freedom. And 
Americans are moved here. I am a Christian. I take solace in 
the words: ``No greater love has any man than to lay down his 
life for his friends.''
    I am moved by the words of Major General David Grange. He 
wrote these eloquent words about his visits to the Wall: ``I 
whisper with tears in my eyes to the names on the Wall, 
`Thanks, you that have fallen, you made a difference then...and 
now.'''
    They do make a difference now. And that is why we are here 
today.
    So let us move to the issue of a visitor center. The 
Memorial is obviously very powerful. Yet if the Memorial is to 
do its job, it must reach out to America's youth. And that is 
why we need to see the visitor center at the Memorial. This 
hearing is about the future, the future of the Memorial as an 
educational device.
    Inside of the visitor center will be photographs--
photographs of those enshrined here. I can picture it right 
now: a group of school kids in the center. They look at the 
photos of young Americans nearly their age. When they see these 
photographs, they will journey to the Wall. And the Wall will 
really have an impact, a memorable impact.
    Willie Oxendine III is upon the Wall. Willie, my son, gave 
his life on May 30, 1968. I will live long enough to see his 
photograph in the visitor center.
    While there will not be a Willie Oxendine IV, Willie will 
live on by inspiring young Americans. They will see his 
photograph. They will be moved. We hope they will be stirred to 
learn more about the Vietnam War and leave with a greater 
interest in American history.
    We are today mindful of the past. Yet we keep an eye toward 
the future. Today we express our commitment to our Nation's 
youth and the message of patriotism and sacrifice that will be 
part of the visitor center.
    We share your commitment as is evidenced by this hearing 
today.
    We salute the wisdom of the Committee and look forward to 
speedy passage of H.R. 1442.
    Gentlemen, thank you for hearing my testimony today.
    [The prepared statement of Ms. Oxendine follows:]

          Statement of Dorothy Oxendine, National President, 
                    American Gold Star Mothers, Inc.

    Mr. Chairman and Members of the Committee. It is an honor to be 
here. This historic Hearing at the Vietnam Veterans Memorial is 
noteworthy and important. I am Dorothy Oxendine, National President of 
the American Gold Star Mothers--mothers who lost their sons in all wars 
including Vietnam.
    We meet today at a sacred place--a place where veterans and family 
members come to remember and, often, to mourn. This is a place where 
love is shown--love for those lost in Vietnam.
    Patriotic men and women answered the call there--just as they did 
at Normandy Beach, at Yorktown and at Gettysburg. In a profound sense 
this is a resting place for those who did not return--they are together 
here.
    Etched row upon row they serve our nation still today. They serve 
to remind Americans of the price of freedom. And Americans are moved 
here. I am a Christian. I take solace in the words: ``No greater love 
has any man than to lay down his life for his friends.''
    I am moved by the words of Major General David Grange. He wrote 
these eloquent words about his visits to The Wall: ``I whisper with 
tears in my eyes to the names on The Wall, ``Thanks, you that have 
fallen, you made a difference then...and now.''
    They do make a difference now. And that is why we are here today.
    So let us move to the issue of the Visitor Center. The Memorial is 
obviously very powerful. Yet if the Memorial is to do its job, it must 
reach out to America's youth. And that is why we need to see the 
Visitor Center at the Memorial. This hearing is about the future. The 
future of this Memorial as an educational tool.
    Inside of the Visitor Center will be photographs. Photographs of 
those enshrined here. I can picture it right now. A group of school 
kids is in the Center. They look at the photos of young Americans 
nearly their age. When they see these photographs they will journey to 
The Wall. And The Wall will really have an impact--a memorable impact.
    Willie Oxendine III is upon this Wall. Willie, my son, gave his 
life on May 30, 1968. I will live long enough to see his photograph in 
this Visitor Center.
    While there will not be a Willie Oxendine IV, Willie will live on 
by inspiring young Americans. They will see his photograph. They will 
be moved. We hope they will be stirred to learn more about the Vietnam 
War and leave with a greater interest in American history.
    We are today mindful of the past. Yet we keep an eye toward the 
future. Today we express our commitment to our Nation's youth and the 
message of patriotism and sacrifice that will be a part of this Visitor 
Center.
    We share your commitment as is evidenced by this Hearing today.
    We salute the wisdom of the Committee and look forward to speedy 
passage of H.R.1442.
    Gentlemen, thank you for hearing my testimony today.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mrs. Oxendine.
    Mr. Rick Jones, welcome to the Subcommittee. You may begin 
your testimony, please.

     STATEMENT OF RICHARD ``RICK'' JONES, AMVETS NATIONAL 
             LEGISLATIVE DIRECTOR, LANHAM, MARYLAND

    Mr. Jones. Chairman Radanovich, Chairman Pombo, Ranking 
Member Christensen, members of the Subcommittee, it is a 
pleasure to be here at this marvelous site with so many friends 
of veterans to present our views on this matter. On behalf of 
Commander Bill Kilgore, thank you.
    The Vietnam Veterans Memorial presents a host of emotions 
from pride of service to sadness of loss. On this monument are 
the names of grandfathers, fathers, spouses, acquaintances, and 
friends engraved into the black granite. Each one deserves to 
be listed. Our Nation honors them at this site.
    Today, AMVETS reaffirms its commitment to adding a visitor 
center to the Vietnam Veterans Memorial. We have supported 
construction of a visitor center for the Vietnam Veterans 
Memorial for nearly 6 years, when delegates of our 1997 
convention in Orlando, Florida, approved a national resolution 
to establish a place on this site to help people gain a better 
understanding of the Memorial.
    For many of us here today, the War in Vietnam was a key 
event in our lives, a touchstone that has shaped who and what 
we have become as adults. However, for those of younger 
generations and generations yet born, the events and people 
that encompass the Vietnam War are merely history, the stuff of 
textbooks.
    AMVETS believes that adding a visitor center to the Vietnam 
Veterans Memorial will create a richer, more profound 
experience for visitors, especially young people. And in large 
part, it will help further pay homage to those special 
Americans who the Nation records as true patriots on the Wall 
behind you.
    Mr. Chairman, many sacrifices have been made. Lives have 
been lost in the name of duty, honor, and country. And a 
visitor center can help make that wall a bridge to commemorate 
and never forget their lives.
    Thank you again for the opportunity to present our 
testimony to your panel on H.R. 1442. This bill will help 
design and construct a visitor center at the Wall, and we 
appreciate your consideration and commitment to serving our 
Nation's veterans and their families, and we look forward to 
passage of this important bill.
    Thank you.
    [The prepared statement of Mr. Jones follows:]

   Statement of Richard ``Rick'' Jones, AMVETS National Legislative 
                                Director

    Chairman Radanovich, Ranking Member Christensen and Members of the 
Subcommittee:
    On behalf of National Commander W.G. ``Bill'' Kilgore and the 
nationwide membership of AMVETS (American Veterans), I thank you for 
the opportunity to present testimony to the Subcommittee on National 
Parks, Recreation, and Public Lands on H.R. 1442, a bill to design and 
construct a visitor center for the Vietnam Veterans Memorial. My name 
is Rick Jones and I serve as the AMVETS National Legislative Director.
    Mr. Chairman, AMVETS has been a leader since 1944 in helping to 
preserve the freedoms secured by America's Armed Forces. Today, our 
organization, composed of a large number of Vietnam veterans, continues 
its proud tradition, providing, not only support for veterans and the 
active military in procuring their earned entitlements, but also an 
array of community services that enhance the quality of life for this 
nation's citizens.
    AMVETS strongly supports this legislation. We firmly believe that 
the development of this center will greatly enhance the experience of 
those who come to this memorial.
    The Vietnam Veterans Memorial is a source of a host of emotions 
from pride of service to sadness of loss. It is one of the most loved 
and frequently visited memorials in Washington, D.C., and it means so 
much to all those who visit to see the name of their grandfather, 
father, spouse, acquaintance or friend engraved into the black granite. 
Here alongside 58,235 other heroes whose names are etched on the Wall, 
these brave men and women who gave the ultimate sacrifice are not 
forgotten.
    As you know, only the names of veterans killed during the Vietnam 
War or who subsequently died from combat-related injuries can be on the 
Wall. Relatives, friends or others submit names to the Defense 
Department. It verifies the information, then tells the National Park 
Service and the Vietnam Veterans Memorial Fund. The nonprofit 
organization, which built the Wall, pays to add the names.
    And, each one deserves to be listed. Our Nation honors them at this 
site on our majestic National Mall. As we look around ourselves today, 
we are surrounded by monuments and symbols of our freedom so many have 
fought to protect. These structures honor those who have made our 
nation what it is today. By their service and endeavor, those so 
honored have helped establish a nation that continues to live up to its 
creed and face challenges to freedom of the present and future.
    Today, AMVETS reaffirms its commitment to adding a visitor center 
to the Vietnam Veterans Memorial. We have supported construction of a 
visitor center for the Vietnam Veterans Memorial for nearly six years, 
when delegates to our 1997 convention in Orlando, Florida, approved a 
national resolution to establish a place on this site to help people 
gain a better understanding of the Memorial.
    For 21 years, the Vietnam Veterans Memorial has stood in quiet 
tribute to those brave individuals who offered the ultimate sacrifice 
for freedom so long ago. For many of us gathered here today, the war in 
Vietnam was the key event in our lives, a touchstone that has shaped 
who and what we have become as adults. However, for those of younger 
generations and generations yet born, the events and people that 
encompass the ``Vietnam War'' are merely history, the stuff of 
textbooks.
    AMVETS believes that adding a visitor center to the Vietnam 
Veterans Memorial will create a richer, more profound experience for 
visitors, especially young people. This center will afford visitors a 
place to offer written reactions to the memorial and thereby establish 
a historical archive available to future visitors. The center will 
offer space to store and display the many and varied items placed in 
remembrance at the memorial and provide a computer database of those 
honored on the memorial. And in large part, it will help pay homage to 
these special Americans who the nation records as true patriots.
    AMVETS believes the cause and purpose of the fighting man and woman 
in Vietnam was no different than that fought for by those brave 
Americans who currently serve or have served in America's other 
conflicts and wars. The 3.4 million Americans who served in the 
Southeast Asia Theater and the 58,235 memorialized on this Wall fought 
for freedom and each other, our nation must never forget their loyalty 
and valor. The burdens and struggles endured by these brave men and 
women, both during and after the battle, must be taught to our children 
so they can understand what the Vietnam War was and develop a strong 
respect for those who served.
    Mr. Chairman, just as the places called Yorktowne, Gettysburg and 
Normandy have been woven into our nation's historical fabric, so must 
the sacrifices offered at Ia Drang Valley, Khe Sanh, and Hamburger 
Hill. Many sacrificed their lives in the name of duty, honor and 
country and the visitor center can help make the Wall a bridge to 
commemorate and never forget their lives.
    Thank you again for the opportunity to present testimony to your 
panel on H.R. 1442, a bill to design and construct a visitor center at 
the Vietnam Veterans Memorial. We appreciate your consideration and 
commitment to serving our nation's veterans and their families, and we 
look forward to passage of this important project.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Jones. Thank you for being 
here.
    Mr. Dennis Cullinan, welcome to the Subcommittee. Please 
begin.

STATEMENT OF DENNIS M. CULLINAN, DIRECTOR, NATIONAL LEGISLATIVE 
     SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED STATES

    Mr. Cullinan. Thank you very much, Mr. Chairman and members 
of the Subcommittee. On behalf of the 2.6 million men and women 
of the Veterans of Foreign Wars and our Ladies Auxiliary, I am 
pleased to testify here today in support of H.R. 1442, 
legislation to authorize the design and construction of a 
visitor center for the Vietnam Veterans Memorial.
    The Vietnam Veterans Memorial, or the Wall, has stood since 
its dedication in 1982 as a national symbol of the service and 
sacrifice of those who paid the ultimate price in defending our 
democratic way of life in Vietnam. More than this, it has come 
to recognize and to honor the courage and patriotism of all of 
the veterans of that war as well as all of those who have 
served this Nation in uniform and stood in harm's way to 
protect our precious liberty. In commemorating these fallen 
heroes of Vietnam, it tangibly venerates the veterans of all 
wars--past, present, and future.
    Among the 4.4 million individuals who visit the Wall 
annually, countless reunions and instances of mental and 
spiritual healing have taken place. It has become the locus for 
reflection and inspiration for veterans and non-veterans alike. 
In this way, it has gone beyond its purely symbolic role and 
become a place where the lessons of history are considered and, 
indeed, taught on a daily basis.
    This memorial offers young and old alike the opportunity to 
learn the lessons of the Vietnam War and to develop a deeper 
awareness and understanding of the true meaning of both 
sacrifice in the service of others and patriotism itself. The 
visitor center under consideration today is perfectly in 
keeping with this role.
    The visitor center will serve as a contemplative venue to 
collect remembrances of the individuals' names that are 
inscribed on the Wall. Significantly, it will allow visitors to 
learn the importance of the Memorial, its role in helping to 
evoke the memory of those who served, and its place in 
promoting healing among those who fought in Vietnam and between 
these men and women and the society they once so bravely 
served. It is for this reasons that the Veterans of Foreign 
Wars strongly supports the expeditious construction of the 
Vietnam Veterans Memorial visitor center on this site in 
providing a unique and profound historical experience to 
benefit untold generations to come.
    Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Cullinan follows:]

    Statement of Dennis M. Cullinan, Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 2.6 million men and women of the Veterans of 
Foreign Wars of the United States and our Ladies Auxiliary, I am 
pleased to testify here today in support of H.R. 1442, legislation to 
authorize the design and construction of a visitor center for the 
Vietnam Veterans Memorial.
    The Vietnam Veterans Memorial or The Wall has stood since its 
dedication in 1982 as a national symbol of the service and sacrifice of 
those who paid the ultimate price in defending our democratic way of 
life in Vietnam. More than this, it has come to recognize and to honor 
the courage and patriotism of all of the veterans of that war as well 
as all of those who have served this nation in uniform and stood in 
harm's way to protect our precious liberty. In commemorating these 
fallen heroes of Vietnam, it tangibly venerates the veterans of all 
wars past, present, and future.
    Among the 4.4 million individuals who visit The Wall annually, 
countless reunions and instances of mental and spiritual healing have 
taken place. It has become the locus for reflection and inspiration for 
veterans and non-veterans alike. In this way, it has gone beyond its 
purely symbolic role and become a place where the lessons of history 
are considered and, indeed, taught on a daily basis.
    This memorial offers young and old alike the opportunity to learn 
the lessons of the Vietnam War and to develop a deeper awareness and 
understanding of the true meaning of both sacrifice in service of 
others and patriotism itself. The Visitor Center under consideration 
today is perfectly in keeping with this role.
    The Visitor Center will serve as a contemplative venue to collect 
remembrances of the individuals' names that will be inscribed on The 
Wall. Significantly, it will allow visitors to learn the importance of 
the Memorial, its role in helping to evoke the memory of those who 
served, and its place in promoting healing among those who fought in 
Vietnam and between these men and women and the society they once so 
bravely served. It is for this reason that the Veterans of Foreign Wars 
strongly supports the expeditious construction of the Vietnam Veterans 
Memorial Visitor Center in providing a unique and profound historical 
experience to benefit untold generations to come.
    Thank you. This completes my testimony and I will be happy to 
respond to any questions you may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Cullinan. Thank you for 
being here.
    Gentlemen, thank you for your testimony, and ladies. Mr. 
Scruggs, I want to start with you because I know that you had 
some panels up there. Can you briefly go through those? They 
looked to me like conceptual ideas of what it should look like.
    Mr. Scruggs. If you would allow me--
    Mr. Radanovich. And a few that it should not look like. Go 
ahead.
    Mr. Scruggs. This exhibit, a short walk from here, shows 
you the, quote-unquote, architectural excellence on the Mall. 
This is diametrically opposed to what we stand for at the 
Vietnam Veterans Memorial Fund. You will not see anything like 
this in any of the capitals of the world, yet it sits in the 
shadow of the Lincoln Memorial.
    I turn to our next exhibit at this time. This is 
approximately a 3-minute walk from where you stand. The roof on 
this, corrugated aluminum roof, or whatever it is, is actually 
rusting. It is a terrible piece of architecture. The 
architecture is exceeded only by the lack of quality of the 
cuisine. If you are hungry in Washington, D.C., do yourself a 
favor. Don't stop there.
    The next photograph, this was taken at 10 a.m. last Friday. 
It is a Tourmobile stand, sitting there, the Lincoln Memorial, 
you can see it in the background. And nobody is even using it.
    The next we have here, are the vending stands at the 
Lincoln Memorial, and at this time I will introduce into the 
record a thoughtfully, carefully written legal opinion by the 
law firm of Williams and Connolly which represents the 
Washington Post and other groups and is a First Amendment law 
firm. This shows how the National Park Service can, on a daily 
basis, force each of these vendors to move their vending tents 
and leave. But this is the historic vista of the Lincoln 
Memorial of the Mall, and this is what we are seeing from the 
stewards of the Mall. And we find this absolutely quite 
incredible.
    Just one more photograph of what the guardians of the Mall 
have given us. This stand has been there longer than we had 
planned for the original visitor center to be part of this. We 
actually planned a 10-year visitor center. Since then, things 
have changed. We are going to have an underground visitor 
center. It is going to be here for a while. But this shows what 
is there. Just another picture of the men's room there. I do 
not mean to sound confrontational or negative toward the 
National Park Service. These are very dedicated civil servants. 
But when you look at the lack of quality of the structures on 
our Nation's Mall and when you go to some of the poorest 
countries in the world, you don't see anything that bad, in 
Saigon and Hanoi.
    Mr. Radanovich. Right. Can you give me an idea of the other 
posters next to them?
    Mr. Scruggs. Yes. Here is the visitor center. You will see 
the visitors are walking down, Exhibits A, B, and C. Exhibit A 
shows you some visitors, and they are looking at the pictures 
of a helicopter. You know, we are just thinking of that. 
Exhibit B, they are looking at a map. Remember how important 
geography is to a well-balanced person. And C, here are the 
photographs. There will be hundreds and hundreds of them of the 
men and women who gave their lives. This will give the 
visitors, youngsters especially, the context to understand the 
wall itself.
    Mr. Radanovich. Would you explain that? You have got the 
site map there, too.
    Mr. Scruggs. Yes, the site map is extremely important. This 
is drawn to scale--drawn to scale, I might add, by Bill Lecky, 
who is here today, one of the most competent architects in 
Washington, D.C., who designed the Vietnam and Korean 
Memorials, all the working drawings. He was basically in charge 
of it. This shows how big these things are.
    Now, when we look at Figure 6, you can see this corrugated 
aluminum building that is next to the Lincoln Memorial, and the 
visitor center for the Vietnam Veterans Memorial sited in red, 
if you could point to that, what you will see is the visitor 
center for the Memorial will be approximately one-fifth the 
size of these corrugated aluminum buildings which stand there.
    Mr. Radanovich. Is the idea, Mr. Scruggs, to eliminate the 
need for restrooms by incorporating that into a visitor center 
as well as food services?
    Mr. Scruggs. Yes, sir. There will not be food services, but 
there will be restrooms. The visitor center as well, we have 
been assured by architects, will be a safe haven in the event 
of biological, nuclear, or chemical attack.
    Mr. Radanovich. Thank you, Mr. Scruggs.
    I now recognize Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I have a couple of questions also for Mr. Scruggs, but I 
want to thank everyone for your testimony. They are a little 
more technical.
    The existing Memorial, has that experienced any water 
seepage problems given its location below grade? And is that a 
concern regarding building a structure underground on these 
grounds?
    Mr. Scruggs. I appreciate that. That is a very thoughtful 
question. In order to build the Memorial behind you, we 
actually had to go down to bedrock. We had hydrologists. We 
have the best engineering firm in Washington, D.C., who has 
assured us that with non-permeable concrete, we can build this 
with no problem.
    Mrs. Christensen. Has there been seepage problems with the 
Wall as it exists?
    Mr. Scruggs. There were problems anticipated, but there 
have been no seepage problems. There have been some hairline 
cracks, and we have Parsons Brinkerhoff Engineers periodically 
review the Memorial.
    Mrs. Christensen. And my question actually was sort of 
answered, and I just got an affirmation on it through the first 
panel, the fact that the visitor center would be underground. 
Is that decided on?
    Mr. Scruggs. Yes, ma'am. It will be approximately 10,000 
square feet. It will be underground. It was planned for 7,000 
square feet. We have expanded it because of some very 
thoughtful commentary that perhaps it needed to be a little 
larger in order to tell a little bit more of the story.
    Mrs. Christensen. So an amendment--the bill as written says 
aboveground or underground. So there wouldn't be any objection 
to us amending to just specifically state ``underground.''
    Mr. Scruggs. We would strongly encourage you to do that, 
and what you will hear in the testimony which our architect, 
the finest in Washington, views as quite laughable from Mr. 
Daniel Smith of the National Park Service is that it is 
impossible to build the visitor center because the aboveground 
element will forever destroy the sight lines, these historic 
sight lines of the Mall, from the same National Park Service 
who brings us these brown buildings. I am quite surprised to 
have been informed of this testimony.
    Mrs. Christensen. The bill also allows the Commission on 
Fine Arts 1 year from the date of enactment to review and 
approve the proposal. So what would happen if the CFA is not 
given the design proposal until so far down in the year that 
the year might be up? Wouldn't it be better for us to start the 
clock running when the proposal is presented to CFA rather than 
giving them 1 year to review and approve?
    Mr. Scruggs. I think so. That was primarily placed in there 
because the Chairman of the National Capital Memorial 
Commission, who also approves the construction permit, who is 
here today, Mr. John Parsons, the last time we testified, July 
2001, the day of the testimony he referred to the visitor 
center in the New York Times in an article by Ms. Eileen 
Scottolino as ``an atrocity.'' So here is a person who is going 
to be issuing the construction permit who chairs these 
commissions, who, of course, coincidentally, unanimously vote 
against this as they approved his $30 million underground 
visitor center for the Washington Monument, which we hope does 
not disturb the structure itself. There was a need to place 
this in the legislation essentially to keep Mr. Parsons from 
misusing his authority as a Federal employee.
    Mrs. Christensen. I am glad you are not antagonistic to the 
National Park Service.
    [Laughter.]
    Mrs. Christensen. Just one last question. Under the 
legislation, once the center is in place, who would determine 
the content of the information provided by the center? Would 
that be the responsibility of the National Park Service or the 
Vietnam Veterans Memorial Fund or both? And who will staff it, 
the National Park Service of the VVMF personnel?
    Mr. Scruggs. We look upon this as pretty much a joint 
project. We would turn to an exhibit at this time, ``Echoes 
from the Wall.'' This has been used in high schools throughout 
the United States. So some of the people who you heard from on 
this panel will be doing the red, white, and blue patriotic 
thing and making sure that this helps people understand the war 
itself.
    And, again, we have worked closely with the Park Service 
for over 20 years. We do it every day. We help the Rangers when 
they run out of rubbing paper, when the lights go out. I mean, 
we are here. But I am sorry, for 3 years I have been fighting a 
person who is very powerful in this town. He has prevailed. And 
I believe the wisdom of the Congress--when he attempted to stop 
this Memorial from being placed here on Constitution Gardens in 
1980 in testimony, the wisdom of the Congress was that this 
Memorial should be here and that Mr. Parsons was wrong. And he 
is even more wrong for the efforts he has made to thwart this 
visitor center, and we will not allow him to thwart the will of 
Congress, assuming this bill is passed.
    Mr. Radanovich. Thank you very much.
    Chairman Pombo?
    The Chairman. Thank you, Mr. Chairman. I am going to defer 
my questions at this point. I was just notified that they 
expect a vote on the floor in about 40 minutes, so I am going 
to defer my questions at this time, and any questions that I 
have will be submitted in writing to the panel.
    Thank you.
    Mr. Radanovich. Thank you, Mr. Pombo?
    Dennis?
    Mr. Cardoza. I just have a couple brief statements.
    First of all, I want to thank Chairman Pombo for carrying 
this piece of legislation. I think this is a very important 
initiative for our country and for the soldiers who fought 
there and for the children who will come after, and I salute 
the Chairman for doing this. And I salute the Chairman for 
holding this hearing today.
    I think it is somewhat appropriate that it is raining like 
hell here because you have had to fight like hell to make this 
project into a reality. Nothing has been easy with regard to 
the war, with regard to building this monument to begin with, 
nor to get this visitor center built. And I salute you, Mr. 
Scruggs, and all the panelists who continue the fight.
    I would observe that I don't think you will stop until you 
get it built, and I salute that, too. And so it is appropriate 
that we have tough weather conditions today because I think it 
just signifies the tough fight that you have all had to go 
through.
    I just want to thank you, Mr. Scruggs, for your years of 
dedication. I brought with me the information packet that you 
gave me when you visited my office the first time, and that you 
distribute to middle school students and maybe some high school 
students. The continuing educational efforts that you promote 
are not just going to be here at the visitor center, but are, 
in fact, something that you take on the road with visiting 
walls and memorials that travel the country, with these 
projects that you take directly to the schools. I just think it 
is so important that we bring our history to life, and for what 
you have done, I salute you.
    We may have to leave and I may not be able to stay for the 
next panel, but I also want to mention that I do understand 
that the National Park Service and, in fact, Mr. Parsons, I 
think, testified before a congressional Committee in 1980 in 
opposition to the Wall and now are in opposition to the visitor 
center because we are protecting the law that they originally 
opposed. And I just think that this Committee--and I would like 
to have your opinion of it, Mr. Scruggs--ought to be very 
forthright in supporting Mr. Pombo's legislation.
    Mr. Scruggs. We appreciate everything that has gone on 
today. We understand the importance of this. We understand our 
responsibility as stewards of the Wall and our responsibility 
for architectural excellence at the Vietnam Veterans Memorial, 
the type of architectural excellence that this Mall needs much 
more of.
    Mr. Radanovich. Thank you very much.
    Mr. Cardoza. I just have one brief question, Mr. Chairman. 
Thank you for your indulgence. I realize the time constraints.
    There are, as you pointed out, a number of vendors' 
stations here. Would those vendors be incorporated into the 
visitor center in some way so that they could be removed from 
the sight lines where they are currently located?
    Mr. Scruggs. I would again turn you to the exhibit that 
shows exactly how their rights as demonstrators can be 
protected and the National Park Service can basically disrupt 
their activities by making them move on a nightly basis. But we 
will not be moving vending areas into the visitor center, and 
it is very interesting to hear you say vending areas, because 
they are given permits because they are demonstrators.
    Mr. Cardoza. I see. I misunderstood. I am sorry.
    Mr. Scruggs. It is quite amazing, isn't it?
    Mr. Radanovich. Thank you.
    Mr. Gibbons?
    Mr. Gibbons. Very briefly, I wanted to thank all of you for 
your testimony, and I have just a couple of questions.
    Your design has to be approved by the Commission on Fine 
Arts. That is by law.
    Mr. Scruggs. Yes, that is correct.
    Mr. Gibbons. Now, with regard to the funding, it is not 
allowed to have taxpayer funds. It is all donations. Is that 
correct?
    Mr. Scruggs. Yes, this will be funded by corporate leaders 
and others. We are also offering to provide every penny to 
maintain this visitor center. We don't think our taxpayers 
should have to pay a penny to maintain a visitor center for 
America's youth.
    Mr. Gibbons. And one final brief question, Mr. Chairman, if 
I may. Give us a time line when you expect to be completed. 
Assuming we are going to get through this bill, assuming we are 
going to get the design accomplished, what is your expected 
time line?
    Mr. Scruggs. We believe we can do it in 3 and a half years.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Gibbons.
    Mrs. Christensen, did you--
    Mrs. Christensen. I just wanted to say for the record, 
because Mr. Parsons has taken quite a bit of hits here today, 
that his job is really defined by the Commemorative Works Act, 
and he is a steward of the Mall, and it is not that he--I don't 
think we can say that he opposed just the Vietnam Memorial, but 
he has a responsibility to protect and preserve the Mall. And I 
am sure he is as supportive as anyone else of the memorializing 
of the events of the war and the people who died. But he is 
just fulfilling his responsibility under the Commemorative 
Works Act.
    Mr. Radanovich. He is not a bad guy.
    Mrs. Christensen. No.
    Mr. Scruggs. No. He doesn't always make the--
    Mr. Radanovich. Thank you very much, Mr. Scruggs and panel. 
I want to thank you very much for being here, and I appreciate 
your testimony. Thank you.
    Mr. Radanovich. Next up is Mr. Dan Smith, who is Special 
Assistant to the Director of the National Park Service, of 
course, here in Washington, D.C. Mr. Smith, welcome to the 
Subcommittee.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
    DIRECTOR, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Smith. Thank you, Mr. Chairman. It is a pleasure to be 
here today to represent the Department. If I could just take 2 
seconds before I begin my official testimony, I am seated 
before you today as a Vietnam veteran who served in the 4th 
Infantry Division in the 1969 and 1970. I sit here before you 
also as a person who was at the Department of Interior when we 
built this Wall. I was here the day we broke ground on the 
right-hand side as I face it. I was here and I staffed the 
dedication that President Reagan did of the Memorial on 
Veterans Day of 1982.
    I have a lot of feelings and they have been brought out in 
other people's testimonies today, and I am very proud to be 
sitting here also as a former staff member of your 
Subcommittee, Mr. Chairman. So a lot of emotions come together 
today, and Mr. Gibbons hit it mostly. If it was only about 40 
degrees warmer, this is a classic day in the highlands in 
Vietnam that I served under.
    Mr. Chairman, thank you for the opportunity to present the 
Department of Interior's views on H.R. 1442. We are deeply 
appreciative of the sacrifices made by the men and women who 
bravely served our country in Vietnam. Our feelings of 
gratitude are heightened at this time of year, as we prepare 
for Memorial Day events in memory of those who lost their lives 
in that conflict. We share the interest of the congressional 
sponsors of H.R. 1442 in having the American public, 
particularly younger generations, better understand and 
appreciate the extraordinary burden borne by those who fought 
for our country during a most difficult, divisive, and painful 
time in our Nation's history.
    The veterans who served our Nation in Vietnam are honored 
here in the Nation's capital in what many view as one of the 
most emotionally moving memorials ever created. The National 
Park Service is privileged to be the steward of that Memorial. 
In that role, we are well aware of the deeply emotional 
experience visitors have when they see the Wall. We believe 
that it is vitally important that nothing detract from the 
powerful emotion that the Memorial evokes, and it is that 
emotion that helps keep alive the public's appreciation of 
those who served in Vietnam. For this reason, as well as 
others, we give careful and cautious consideration of any 
proposal to add a new structure to this Memorial.
    The Department wants to ensure that a structure on or 
adjacent to the Vietnam Veterans Memorial, as envisioned in 
H.R. 1442, will not detract from visitors' experience at the 
Vietnam Veterans Memorial and the nearby Lincoln Memorial. We 
believe that there may be other suitable alternatives to the 
proposed visitor center that should be explored. We would like 
to work with the Committee to identify alternative ways of 
fulfilling the goal of this legislation or to work with the 
Committee to specifically deal with a structure near the site, 
adjacent to the site, that certainly would be sited properly 
and would certainly be of a certain size and dimension that 
would be appropriate to this Memorial.
    As you know, several elements have already been added to 
the original black granite wall that were not part of the 
original design. With each addition, the Department has been 
concerned about the risk of diminishing the original work. The 
proposed addition of a visitor center at this site poses a 
significant new challenge since it would not just another 
memorial element but, instead, a relatively large structure 
adjacent to the Memorial.
    A similar view is shared by the two commissions that, by 
law, review proposals for structures in this monumental core 
where we are sitting today. Over the past several years, there 
have been proposals considered by those commissions from 1,200 
square feet to 8,000 square feet, and there were problems found 
with that. Some of that included aboveground designs, which, of 
course, were perceived as possibly more a problem than 
something would have been underground.
    On February 7th of last year, the Director of the National 
Park Service did write a letter to Jan Scruggs at the Vietnam 
Veterans Memorial Fund, and she stated that the Park Service is 
supportive for the concept of an underground facility so long 
as it was appropriately sized and sited, acceptable visually, 
and had a minimum of distracting qualities to the visitor 
experience. The Director committed the National Park Service to 
consult with the fund, as well as the National Capital Memorial 
Commission, the Commission of Fine Arts, and the National 
Capital Planning Communications on the options available to 
enhance the interpretation of that memorial.
    Mr. Chairman, the Department is fully committed to 
educating the public about the Vietnam Veterans Memorial and 
the men and women who served our Nation in Vietnam. In 
coordination with the Committee, we would like to investigate 
various alternatives for fulfilling the goal of this 
legislation. Several ideas could be to enhance the existing 
visitor kiosk and the interpretation that is available there 
for the Memorial, or possibly studying sites that are near the 
Memorial but not located at the Memorial. We are open to other 
ideas as well, and obviously we have this piece of legislation 
in front of us today, and we look forward to working with the 
Committee as this bill does move forward.
    The goal of H.R. 1442 of educating the public about Vietnam 
is an admirable one and one that the Department has fully 
supported and will continue to do so. We look forward to 
working closely with the Committee.
    Mr. Chairman, there are several technical amendments that 
we would like to discuss with the Committee at a later date as 
this moves forward so that it is a piece of legislation that is 
a little bit more clear on the roles between the Vietnam 
Veterans Memorial Fund and the Park Service and that type of 
things, and we will do that at a later time if you would permit 
us.
    This concludes my statement, and I would be pleased to 
answer any questions the Committee has.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1442, which would authorize 
the Vietnam Veterans Memorial Fund to construct a visitor center to 
provide information to the public on the Vietnam Veterans Memorial.
    We are deeply appreciative of the sacrifices made by the men and 
women who bravely served our country in Vietnam. Our feelings of 
gratitude are heightened at this time of year, as we prepare for 
Memorial Day events in memory of those who lost their lives in that 
conflict. We share the interest of the congressional sponsors of H.R. 
1442 in having the American public, particularly younger generations, 
better understand and appreciate the extraordinary burden borne by 
those who fought for our country during a most difficult, divisive, and 
painful time in our nation's history.
    The veterans who served our nation in Vietnam are honored here in 
the Nation's Capital in what many view as one of the most emotionally 
moving memorials ever created. We are privileged to be the steward of 
this memorial. In that role, we are well aware of the deeply emotional 
experience visitors have when they see the Wall. We believe that it is 
vitally important that nothing detract from the powerful emotion that 
the memorial evokes, as it is that emotion that helps keep alive the 
public's appreciation of those who served in Vietnam. For this reason, 
as well as others, we give careful and cautious consideration of any 
proposal to add a new structure to the memorial.
    The Department wants to ensure that a structure on or adjacent to 
the Vietnam Veterans Memorial, as envisioned by H.R. 1442, will not 
detract from visitors' experience at the Vietnam Veterans Memorial, and 
the nearby Lincoln Memorial. We believe there may be other more 
suitable alternatives to the proposed visitor center that should be 
explored. We would like to work with the committee to identify 
alternative ways of fulfilling the goal of this legislation.
    H.R. 1442 would authorize the Vietnam Veterans Memorial Fund to 
construct a visitor center to provide information to the public on the 
memorial. The bill would authorize the center to be located either 
above ground or underground, on or adjacent to the memorial. It would 
require the Secretary of the Interior to offer to lease the center to 
the Vietnam Veterans Memorial Fund for a 20-year term, renewable in 20-
year increments. The Vietnam Veterans Memorial Fund would be 
responsible for maintaining exhibits at the center and would share 
other maintenance responsibilities with the Department.
    H.R. 1442 requires the visitor center to be located in a way that 
prevents interference with or encroachment on the memorial and protects 
open space and visual sightlines on the National Mall, and constructed 
and landscaped in a manner that is consistent with the Memorial and the 
National Mall. We appreciate that H.R. 1442 seeks to be sensitive to 
siting and design concerns that have been raised since similar 
legislation was first introduced three years ago.
    As you know, several elements have already been added to the 
original black granite wall that were not part of the original design. 
They include the flagpole and the Three Servicemen statue, the Memorial 
to Women who Served in Vietnam that was constructed in 1993, and most 
recently, the In Memory Plaque, to those veterans who died after the 
war as a direct result of their military service in Vietnam, which was 
authorized in 2000. With each addition, the Department has been 
concerned about the risk of diminishing the original work. The proposed 
addition of a visitor center at the site poses a significant new 
challenge, since it would not be just another memorial element but, 
instead, a relatively large structure adjacent to the memorial.
    A similar view is shared by the two commissions that, by law, 
review proposals for structures in the monumental core--the National 
Capital Planning Commission and the Commission of Fine Arts--as well as 
the National Capital Memorial Commission, which advises the Secretary 
of the Interior and Congress on such proposals. Since the time 
legislation authorizing construction of a visitor or education center 
was first introduced, two design concepts have been publicized. One was 
a 1,200-square-foot above-ground facility that would be sited where the 
existing 168-square-foot information kiosk currently stands. All three 
commissions were opposed to that proposal, and the Department testified 
in opposition to it in testimony before the Senate Subcommittee on 
National Parks in July, 2001.
    The other publicized design concept was an 8,000-square-foot 
underground facility, which would include a substantial above-ground 
entrance. In a February, 2002 letter to the President of the Vietnam 
Veterans Memorial Fund, the Director of the National Park Service 
indicated support for the concept of an underground facility, so long 
as it was appropriately sized and sited, acceptable visually, and had a 
minimum of distracting qualities to the visitor experience. The 
Director committed the National Park Service to consult with the Fund, 
as well as the National Capital Memorial Commission, the Commission of 
Fine Arts, and the National Capital Planning Commission on the options 
available to enhance the interpretation of the memorial.
    At the time that the letter was written, we believed that it might 
be possible to design an underground facility for the memorial that 
was, in fact, appropriately sized and sited for the memorial. Since 
that time, however, the National Park Service has consulted with 
representatives of the three commissions. They have expressed serious 
concerns that, because of the practical need for a large above-ground 
entrance, it would be virtually impossible to design an underground 
facility in close proximity to the memorial that is not intrusive on 
the visitor experience. In a public meeting in September, 2002, with 
the National Park Service representative abstaining, the National 
Capital Memorial Commission--which includes representation from the 
other two commissions--voted unanimously to oppose construction of an 
underground visitor center at the Vietnam Veterans Memorial.
    In addition, members of the three commissions are concerned about 
the precedent a facility of this type would set for other memorials. 
Structures similar to that proposed by H.R. 1442 have been disapproved 
or precluded at the Franklin Delano Roosevelt, World War II, and Martin 
Luther King, Jr. Memorials because they would detract from the visitor 
experience. These types of structures run counter to the Memorials and 
Museums Master Plan, which was endorsed by all three commissions after 
extensive public review. If a visitor center is allowed to be 
constructed at the Vietnam Veterans Memorial, it will make it much more 
difficult to deny proposals for such facilities at other similar 
memorials, despite both previous denials of such proposals and the 
guidelines opposing these structures contained in the approved Master 
Plan.
    The Department is fully committed to educating the public about the 
Vietnam Veterans Memorial and the men and women who served our nation 
in Vietnam. For more than ten years, the Smithsonian has displayed an 
exhibit of the offerings left at the Vietnam Veterans Memorial and 
collected by National Park Service rangers. Other exhibits of offerings 
collected by the National Park Service have traveled to schools, 
universities, museums and veterans centers all over the world. In 
addition, the National Park Service has published a book and CD-ROM on 
the history of the memorial and runs a website designed to educate 
children about museum collections, including those associated with the 
Vietnam Veterans Memorial. The National Park Service has been involved 
in a number of news programs and television specials on the Vietnam 
Veterans Memorial and the history of our nation's involvement in 
Vietnam.
    In coordination with the committee, we would like to investigate 
various alternatives for fulfilling the goal of this legislation. Two 
ideas we would like to explore are (1) enhancing the existing visitor 
kiosk and interpretation at the memorial, and (2) studying sites near 
the Mall where a visitor center for the Vietnam Veterans Memorial could 
be located. We are open to other ideas, as well, that the committee, or 
the Vietnam Veterans Memorial Fund, or others may suggest.
    On the first idea we mentioned, we think that it might be possible 
to modify the information kiosk at the Vietnam Veterans Memorial to 
include computerized touchscreens that visitors could access to find 
information about the memorial, and individuals who served in Vietnam. 
The use of computer technology and touchscreens would enable a wide 
variety of periodically revolving information to be provided to 
visitors. This type of technology is already in use at the Korean War 
Veterans Memorial, and is planned for the World War II Memorial. Along 
with enhancing the visitor kiosk, the National Park Service would want 
to work with the Vietnam Veterans Memorial Fund to develop more 
extensive visitor outreach and interpretive programs that do not 
necessitate a new structure.
    On the other idea, we would undertake a study to identify sites 
near the Mall that are feasible for a visitor center specifically for 
the Vietnam Veterans Memorial. We would expect to work closely with the 
Vietnam Veterans Memorial Fund, as well as the committee, in conducting 
this study.
    The goal of H.R. 1442 of educating the public about Vietnam is an 
admirable one, and one that the Department has fully supported and will 
continue to do so. We believe that the two possible courses we have 
suggested could lead to excellent opportunities to educate visitors 
about the men and women who served our nation in Vietnam, and would do 
so while preserving the sanctity of the memorial so that it 
appropriately honors them. And, as I mentioned, we are open to other 
ideas for pursuing the same goal. We look forward to working closely 
with the committee to fulfill the spirit of this legislation.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions that you or other members of the committee may 
have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Smith.
    Any questions from the panel? Mr. Pombo?
    The Chairman. Thank you, Mr. Chairman. Just very quickly.
    Mr. Smith, I have had a number of conversations since this 
legislation--before and after the legislation was introduced 
with members of your Department and members of the 
Administration about where we go from here. And one of the 
reasons that the legislation was drafted the way it was was to 
give us the flexibility to work with the Administration to come 
up with something that would work down here.
    Mrs. Christensen talked about the legislation was drafted 
to say aboveground or belowground, and in a bunch of different 
areas it gave that flexibility. And I have been assured that 
the Administration and the Park Service will continue to work 
with us to further refine that legislation and come up with 
something that hopefully can support and the Administration can 
support in the end that this Committee can pass and move 
through Congress.
    Has anything changed from where we were, you know, last 
week until today in terms of that relationship that I thought 
we had?
    Mr. Smith. Mr. Chairman, I do not believe so. I am aware 
that you met with the Assistant Secretary for Fish, Wildlife, 
and Parks Thursday a week ago, and certainly the message that 
came from that Assistant Secretary is the way we would like to 
proceed with the Committee to coordinate on this legislation.
    The Chairman. I have no desire on my part to ram anything 
down anyone's throat when it comes to getting this through. 
Whatever we ultimately come up with, I want it to be something 
that works. And I am willing to work with you guys to get that 
done, but this is something I care about. And I would like to 
move forward with that. So hopefully we can have the kind of 
discussions in order to move forward and get that done, because 
I think this is something that the time has come that we should 
move forward with that. So I look forward to working with you 
and the other members of the Administration to get it done.
    Mr. Smith. Mr. Chairman, thank you, and I know that the 
Director of the National Park Service wanted me to make sure 
that I put on the record that she is ready, willing, and able 
to work with the Committee to refine this legislation and, 
again, to carry out the responsibilities that the National Park 
Service has, not only for the Vietnam Veterans Memorial but the 
entire Mall, and to work this through the process that has 
worked for all of these memorials and monuments that are here 
on the Mall. So we pledge to do that, Chairman.
    The Chairman. Thank you.
    Mr. Radanovich. Thank you.
    Mrs. Christensen, you are OK?
    Mrs. Christensen. I think I will pass on the questions 
because I think that most of the concerns that I have can be 
addressed as the Director works with the Committee to work out 
some of the areas that I have some concern about.
    Mr. Radanovich. Mr. Gibbons?
    Mr. Gibbons. No questions.
    Mr. Radanovich. All right. Thank you.
    Mr. Smith, thank you for your testimony.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Radanovich. And I don't have the exact wording, but I 
just want people to know that we will accept written testimony 
for up to 2 weeks after this hearing. If people want to submit 
that, they are perfectly welcome.
    The Chairman. Mr. Chairman?
    Mr. Radanovich. Mr. Pombo?
    The Chairman. There will be further questions for this 
panel and for previous panels that will be submitted in 
writing. I know that I have further questions. There are other 
members of the Committee who wanted the opportunity to present 
questions at this hearing. Those will be submitted in writing. 
This panel, Mr. Smith, and the previous panels will have the 
opportunity to answer those questions in writing as well so 
that they can be included in the hearing record.
    Mr. Radanovich. Mr. Smith, again, thank you. That ends this 
session of this panel and also ends the Subcommittee hearing. I 
want to thank everybody for braving the weather and coming out 
here today to this most beautiful site, even in the dampness.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

</pre></body></html>
